OFFICE OF INSPECTOR GENERAL


SEMIANNUAL REPORT TO CONGRESS
OCTOBER 1, 2013, to MARCH 31, 2014




ASSESSING THE COST OF
BAD MORTGAGE LOANS




                                     U.S. DEPARTMENT
                                     OF HOUSING
                                     AND URBAN
                                     DEVELOPMENT
OUR MISSION
       As the Office of Inspector General (OIG) for the
  U.S. Department of Housing and Urban Development (HUD),
we remain an independent and objective organization, conducting
  and supervising audits, evaluations, and investigations relating
         to the Department’s programs and operations.

     • We promote economy, efficiency, and effectiveness
      in these programs and operations as we also prevent
         and detect fraud, abuse, and mismanagement.

      • We are committed to keeping the HUD Secretary,
  Congress, and our stakeholders fully and currently informed
     about problems and deficiencies and the necessity for
                and progress of corrective action.
  OUR VALUES
              1   Collaboration: The commitment to work
  jointly with HUD, Congress, and our stakeholders for the benefit
  of all citizens.   2   Accountability: The obligation and willingness
 to accept responsibility and account for our actions.          3   Integrity:
   The firm adherence to high moral and professional standards,
    honesty, and fairness in all that we do. Acting with integrity is
   a core job responsibility for every employee.         4   Stewardship:
 The careful and responsible management of that which has been
entrusted to our care.      5   Diversity: The promotion of high standards
of equal employment opportunity for employees and job applicants
             at all levels so that our workforce is reflective
                            of our country’s citizens.
     OUR VISION
              1   To promote fiscal responsibility and financial
             accountability in HUD programs and operations,
 2   To improve the execution of and accountability for grant funds,
      3   To strengthen the soundness of public and Indian housing
     programs,       4       To protect the integrity of housing insurance and
     guarantee programs,             5   To assist HUD in determining whether
it is successful in achieving its goals,             6   To look ahead for emerging
 trends or weaknesses that create risk and program inefficiencies,
 7   To produce innovative work products that are timely and of high
          quality,       8    To benchmark best practices as a means to
             guide HUD, and              9   To have a significant impact
                  on improving the way HUD does business.
DIVERSITY AND EQUAL OPPORTUNITY
  The promotion of high standards of equal employment opportunity

   for employees and job applicants at all levels. HUD OIG reaffirms its

  commitment to nondiscrimination in the workplace and the recruitment

   of qualified employees without prejudice regarding their gender, race,

    religion, color, national origin, sexual orientation, disability, or other

  classification protected by law. HUD OIG is committed and proactive in

  the prevention of discrimination and ensuring freedom from retaliation

     for participating in the equal employment opportunity process in

          accordance with departmental policies and procedures.
PROFILE OF PERFORMANCE
Audit profile of performance for the period October 1, 2013, to March 31, 2014
RESULTS                                                                      THIS REPORTING PERIOD

Recommendations that funds be put to better use                                    $1,130,566,054

Recommended questioned costs                                                       $125,061,696

Collections from audits                                                             $33,897,499

Administrative sanctions                                                                 6

Subpoenas                                                                                54



Investigation profile of performance for the period October 1, 2013, to March 31, 2014
RESULTS                                                                      THIS REPORTING PERIOD

Total restitution and judgments                                                     $48,567,967

Total recoveries and receivables to HUD programs                                    $23,892,030

Arrests                                                                                  149

Indictments and informations                                                             189

Convictions, pleas, and pretrial diversions                                              267

Civil actions                                                                             7

Total administrative sanctions                                                           96

  Suspensions                                                                            36

  Debarments                                                                             43

  Limited denial of participation                                                         3

  Removal from program participation                                                      5

  Evictions                                                                              6

  HUD/HUD OIG personnel actions                                                           3

Systemic implication reports                                                              1

Search warrants                                                                          24

Subpoenas                                                                                376
DURING THIS REPORTING PERIOD, WE HAD


MORE THAN $1.1 BILLION IN FUNDS PUT


TO BETTER USE, QUESTIONED COSTS OF


MORE THAN $125 MILLION, AND NEARLY


$34 MILLION IN COLLECTIONS RESULTING


FROM 44 AUDIT REPORTS AND NEARLY


$24 MILLION IN RECOVERIES DUE TO OUR


INVESTIGATIVE EFFORTS.
A M E S S AG E F R O M I N S P E C T O R G E N E R A L D AV I D A . M O N T OYA



IT IS WITH A SENSE OF SINCERE GRATITUDE AND COMMENDATION
TO OUR STAFF that I present to you the U.S. Department of Housing and Urban Development (HUD),
Office of Inspector General’s (OIG) Semiannual Report to Congress for the first half of fiscal year 2014. This

report is the culmination of amazing efforts by a dedicated group of auditors, investigators, evaluators,

attorneys, and various support staff. I am grateful to be surrounded by a remarkable and talented staff.

                                     During this reporting period,    meet U.S. Treasury cash management requirements. We also
                                     we had more than $1.1            reported on four internal control material weaknesses, up from
                                     billion in funds put to better   just one the previous year, as well as other significant control
                                     use, questioned costs of         deficiencies. The problems are longstanding and stem from
                                     more than $125 million,          HUD’s inability to establish a compliant control environment,
                                     and nearly $34 million in        implement adequate systems, recognize required changes, or
                                     collections resulting from 44    identify appropriate accounting principles and policies.
                                     audit reports and nearly $24          A key area of investigative activity has been grant fraud.
                                     million in recoveries due to     To highlight a significant case, after pleading guilty to diverting
                                     our investigative efforts. We    Federal funds, a developer was sentenced to 87 months
                                     also had 189 indictments and     imprisonment and 24 months probation and was ordered
                                     informations, 267 convictions,   to pay restitution totaling almost $21 million to multiple
and 149 arrests during this reporting period. These results can       victims. These victims included the City of Harrisburg, PA, and
only be described as extraordinary work by dedicated public           Dauphin County, PA, which incurred more than $6 million in
servants who, even in the face of uncertain budgets, rise to levels   losses associated with HUD Community Development Block
of effort that make me proud to be their Inspector General. Their     Grant-Section 108 Guaranteed Loans. From 2005 through
efforts have contributed to better accountability of HUD programs     2009, the developer raised funds from multiple sources for
and operations, which benefits all Americans.                         the construction of the Capital View Commerce Center in
     Our high-profile audit and investigative work continues          Harrisburg. The developer then diverted millions of dollars of
to target HUD’s high-risk areas. In particular, civil fraud           those loan funds into investment accounts he controlled and a
investigations continue to be an area of emphasis in addressing       company he secretly owned, which was purportedly working
fraud against the Federal Housing Administration’s (FHA)              on the contract. The project was heralded as an opportunity
single-family programs. During the reporting period, I am             for economic growth for Harrisburg, which at the time of the
pleased to report on the results to date of our ongoing reviews       scheme was experiencing financial difficulties.
of FHA lenders. To help recover FHA’s losses, OIG continues                Since its creation in 1974, HUD OIG has been a leader in
to aggressively review lender origination and underwriting            the effort to fight waste, fraud, and abuse in nearly 300 HUD
practices, working closely with the U.S. Department of Justice,       programs, along with its oversight of American Recovery and
U.S. Attorneys’ Offices, and HUD’s Office of General Counsel.         Reinvestment Act stimulus funding, disaster recovery efforts,
Of particular note is a settlement reached with JPMorgan Chase        and the recent financial crisis. I would once again like to
totaling $614 million, of which $564.4 million directly relates       express my appreciation to Congress and the Department for
to FHA loans, in which the bank admitted to and accepted              their sustained commitment to addressing the top challenges
responsibility for improperly approving thousands of mortgage         facing HUD’s programs. I also extend my sincere appreciation
loans for government insurance and agreed to implement an             and admiration to the staff of HUD OIG for its dedication and
enhanced quality control program.                                     commitment to our mission and conducting its work in the
     A report on the latest annual audit of HUD’s financial           most outstanding fashion.
statements was issued during this reporting period, which,
unfortunately, reflected deterioration in HUD’s fiscal
stewardship. It was necessary for us to qualify our opinion on
HUD’s financial statements because of deficient budgetary
accounting for HUD’s community planning and development                    David A. Montoya | Inspector General
programs and because HUD lacked proper accounting to
TRENDING
SUPERSTORM SANDY                             HUD OIG has proactively engaged         be noted, that the FHA insurance fund
The destruction and aftermath of         in oversight of the Hurricane Sandy         is not the only victim, as numerous
Superstorm Sandy will continue to        disaster funds. It has held strategic       failed mortgages negatively affect
be a focus and challenge for the U.S.    planning meetings, conducted training       neighborhoods by creating empty
Department of Housing and Urban          sessions, held monthly meetings with        homes and causing declining home
Development, Office of Inspector         HUD’s Disaster Recovery officials,          prices, and borrowers can be left with
General (HUD OIG). Congress              conducted auditability surveys, and         mortgages that they cannot readily
provided $16 billion in supplemental     initiated audits. During this reporting     afford, which frequently creates credit
appropriations through HUD’s             period, the Office of Audit has completed   issues that haunt borrowers for years.
Community Development Block              two disaster audits. In addition, the           Mortgage fraud played a major
Grant Disaster Recovery (CDBG-DR).       Office of Audit has seven ongoing           role in the country’s financial troubles,
program to help communities recover      disaster audits. More specifically,         and HUD was directly affected when
from the superstorm. To address the      it is performing audits of New              its FHA insurance fund repeatedly
enormous task of enforcement and         Jersey’s Tourism Marketing program,         fell victim to the reckless disregard
oversight, we have designated the New    homeowner resettlement program,             of lenders and other real estate
York and Philadelphia regions (Regions   and the Sandy Integrated Recovery           professionals that failed to follow
2 and 3) to perform the bulk of Sandy    Operations and Management System            FHA loan origination requirements.
oversight. Our audit, investigative,     (SIROMS), the automated solution that       Relying on assertions made by FHA-
and evaluations staff will provide       will allow the State to quickly deploy      approved and trusted lenders, HUD
a continuing and comprehensive           its CDBG-DR funds, as well as New           insured an untold number of mortgage
review of the expenditure of funds and   York’s health and hospital payments,        loans that did not meet underwriting
program administration.                  homeowner buyout program, and the           requirements. As a result, the FHA
    HUD OIG has been working jointly     effectiveness of Vermont’s disaster         fund incurred unprecedented losses
with HUD’s disaster staff to ensure      program.                                    on loans that did not meet minimum
that the lessons learned from previous                                               underwriting requirements.
disasters will be considered in the      CIVIL FRAUD                                     HUD OIG is active in the national
approval of the grantees’ work plans     Civil fraud investigations continue to      Financial Fraud Enforcement Task
and HUD’s disaster guidance.             be an area of emphasis for HUD OIG,         Force and, more specifically, it’s
    During this reporting period, the    particularly with regard to mortgage        Mortgage Fraud Working Group.
Office of Investigation opened a total   fraud. HUD OIG’s Joint Civil Fraud          FHA mortgage fraud investigations
of 36 complaints and investigations.     Division, a distinct team of forensic       begun under the task force’s efforts
Four training session were provided to   auditors and special agents located         places HUD OIG in close working
HUD personnel, grantees, and other       in various field offices, serves as the     relationships with the U.S. Department
law enforcement partners tasked          central hub in HUD OIG’s efforts to         of Justice, U.S. Attorney’s Offices, and
with investigating disaster fraud.       investigate fraud and pursue civil          HUD’s Office of General Counsel to
Lessons learned from previous disaster   actions and administrative sanctions        investigate and convey civil cases.
programs were highlighted as well as     against those that commit fraud             These partnerships recently yielded a
tips on identifying fraud. A total of    against HUD. The Division has been          $614 million civil settlement in which
17 outreach sessions were conducted      primarily focused on investigating          JPMorgan Chase took responsibility for
with grantees and administrators of      mortgage fraud and its ill effects on       not following Federal loan origination
Superstorm Sandy funds in the New        HUD’s Federal Housing Administration        requirements on thousands of federally
York and New Jersey areas.               (FHA) loan insurance fund. It should        insured loans. Nearly $565 million
of the total settlement related specifically to
the FHA program, and the FHA insurance fund
                                                              TABLE OF CONTENTS
will significantly benefit from a portion of the              Chapter 1 – Single-Family Programs..................................12
settlement.1 HUD OIG continues to work closely
with these same Federal partners to pursue civil              Audit.................................................................................................... 12
cases against additional lenders for the fraudulent
                                                              Investigation...................................................................................... 12
underwriting of FHA-insured mortgages and
against real estate professionals and borrowers               Chapter 2 – Public and Indian Housing Programs............15
that committed fraud in pursuit of FHA-insured
mortgages.                                                    Audit.................................................................................................... 15
        While mortgage fraud is a current focus
                                                              Investigation...................................................................................... 18
of the Joint Civil Fraud Division, the Division
continues to expand its focus to conduct and                  Chapter 3 – Multifamily Housing Programs......................20
coordinate more investigative work in HUD’s
other program areas, to include community                     Audit....................................................................................................20
planning and development, public housing, and
                                                              Investigation...................................................................................... 21
multifamily housing.

                                                              Chapter 4 – Community Planning
JOINT INITIATIVES                                             and Development Programs................................................23
As part of its strategic plan this year, OIG
identified nine initiatives that are being worked             Audit....................................................................................................23
jointly between our Offices of Audit and
Investigation. These initiatives were selected as             Investigation......................................................................................25

they are some of the most troublesome problems
                                                              Chapter 5 – Disaster Relief Programs.................................27
that OIG repeatedly finds in its work. Therefore,
the joint working groups are looking for root                 Audit....................................................................................................28
causes. This initiative is also focused on bringing
together diverse skill sets from the Offices of Audit         Chapter 6 – Other Significant Audits, Investigations,
and Investigation, in hopes of developing new                 and Evaluations......................................................................29

approaches to these longstanding issues.
                                                              Audit....................................................................................................29

The initiatives are                                           Investigation......................................................................................32
       • F
          HA appraisals and high-risk appraisers,
       • S
          trengthening HUD’s real estate-owned               Evaluations.........................................................................................32
         program,
                                                              Investigation of Lobbying Activities..............................................34
       • Community planning and development
         program oversight and grantee performance,           Chapter 7 – Legislation, Regulation, and Other Directives..... 36
       • R
          eview of lender oversight,
       • O
          peration Home Rules – Englewood Joint              Chapter 8 – Audit Resolution..............................................39
         Initiative,
                                                              Appendix 1 – Peer Review Reporting.................................51
       • C
          ommunity planning and development
         subrecipients and developers,                        Appendix 2 – Audit Reports Issued.....................................52
       • M
          ultifamily housing programs,
       • P
          reforeclosure sales, and                           Appendix 3 – Tables..............................................................56
       • J oint Public and Indian Housing Initiative.
                                                              OIG Telephone Directory.....................................................75

                                                              Acronyms List........................................................................78
1
    A
     lthough the JPMorgan Chase case settled in February
                                                              Reporting Requirements .....................................................79
    2014, due to pending distributions of the settlement
    amount, HUD OIG will report in detail on the settlement
    in the next Semiannual reporting period.
SEMIANNUAL REPORT TO CONGRESS




  ONE        SINGLE-FAMILY PROGRAMS




The Federal Housing Administration (FHA) single-family programs provide mortgage insurance to mortgage
lenders that, in turn, provide financing to enable individuals and families to purchase, rehabilitate, or construct
homes. Some of the highlights from this semiannual period are noted below.


AUDIT

STRATEGIC INITIATIVE 1: CONTRIBUTE TO THE REDUCTION OF FRAUD IN SINGLE-
FAMILY INSURANCE PROGRAMS



          Key program results                      Questioned costs                Funds put to better use

     Audit                2 audits                           -                                  -



REVIEW OF HUD’S LOSS MITIGATION PROGRAM
The U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG), audited
the Wyoming Community Development Authority in Casper, WY, to determine whether the Authority properly
administered HUD’s Loss Mitigation Program for FHA-insured mortgages.
     The Authority properly administered HUD’s Loss Mitigation Program for the FHA loans reviewed.  OIG
made no recommendations, and no further action is necessary. (Audit Report: 2014-DE-1001)



INVESTIGATION

PROGRAM RESULTS

 Administrative-civil actions                             42

 Convictions-pleas-pretrial diversions                    116

 Financial recoveries                                $8,732,645




12
                                                                                 CHAPTER ONE SINGLE-FAMILY PROGRAMS




PRISON TIME IN FORECLOSURE RESCUE SCHEME
The owner of foreclosure rescue businesses, US Mortgage Bailout, USMortgageBailout.com, and iLoanAudit, was
sentenced in U.S. District Court to 60 months incarceration and 3 years supervised release and ordered to pay
restitution in the amount of $1.4 million following guilty pleas to mail fraud, wire fraud, money laundering, and
bankruptcy fraud. The owner ran a multiyear scheme to collect money from thousands of distressed borrowers
by promising to provide loan modifications. The companies’ Web sites claimed to be “an experienced legal
team made up of attorneys and paralegals to handle all of the negotiations with your current lender,” which
had “helped thousands of homeowners avoid foreclosure” and boasted a 97 percent success rate, when no
foreclosure rescue assistance was provided. This investigation was conducted by HUD OIG. (South Bend, IN)



SOVEREIGN CITIZEN INCARCERATED FOR FORECLOSURE RESCUE SCHEME
A member of the sovereign citizen movement was sentenced in U.S. District Court to 30 months incarceration
and 5 years probation after pleading guilty to passing fictitious obligations to homeowners in a debt elimination
scheme that left homeowners in foreclosure.  From February 2009 through June 2012, the sovereign citizen and
her father, who was found guilty of 13 felony counts, preyed on struggling homeowners by defrauding them of
thousands of dollars and promising to access a “secret” stash of Federal money for use in eliminating their debt,
while instructing them to stop payments on their mortgages and other debt.  In exchange for eliminating their
debt, the homeowners were required to join their sovereign citizen program.  This investigation was conducted
by HUD OIG and the Internal Revenue Service-Criminal Investigation (IRS-CI).  (Hartford, CT)



FORMER MORTGAGE COMPANY MANAGER SENTENCED TO PRISON
A former assistant manager of a mortgage origination company called Madison Funding was sentenced in
U.S. District Court to 16 months incarceration for conspiracy, false statements to HUD to obtain FHA
insurance, and aiding and abetting. Between October 2006 and at least June 2008, the assistant manager
submitted loan applications, which contained false information about the borrowers and were often
supported by falsified, forged, and altered documents. Each funded loan generated thousands of dollars in
commissions to Madison Funding and its employees. Eight of the properties involved in this scheme were
FHA-insured mortgages totaling approximately $1.1 million, with losses to FHA totaling more than $111,000.
This investigation was conducted by HUD OIG, the Federal Deposit Insurance Corporation OIG, and the
Federal Housing Finance Agency (FHFA) OIG.  (Allentown, PA)



CONSTRUCTION COMPANY OWNERS SENTENCED IN FLIPPING SCHEME
The owners of two construction companies pled guilty in U.S. District Court to charges of conspiracy and
wire fraud and were sentenced to 18 months incarceration and 3 years supervised release and ordered to pay
restitution in the amount of more than $1.2 million, with $566,684 payable to HUD. Between March 2008
and February 2010, the owners recruited straw buyers to purchase properties at inflated prices and submitted
fraudulent bank statements, IRS Forms W-2, pay stubs, and tax returns to lenders in support of loan applications
for more than $837,000 in mortgage loans.  This investigation was conducted by HUD OIG, the Federal Bureau
of Investigation (FBI), FHFA OIG, and the U.S. Postal Inspection Service.  (Trenton, NJ)




                                                                                                                13
SEMIANNUAL REPORT TO CONGRESS



LOAN MODIFICATION COMPANY OWNER SENTENCED FOR HAMP FRAUD
The owner of a mortgage loan modification telemarking business was sentenced in U.S. District Court to
1 month incarceration and 3 years probation and ordered to pay restitution in the amount of $121,400 to
victimized homeowners after pleading guilty to mail fraud and aiding and abetting. Between 2009 and 2011,
the owner solicited distressed homeowners, claiming that his telemarketing business was affiliated with
HUD and could provide assistance through the Home Affordable Modification Program (HAMP) for a fee.
The owner then collected fees from an estimated 124 distressed homeowners but did not attempt to help the
homeowners avoid foreclosure. This investigation was conducted by HUD OIG. (San Diego, CA)



REALTORS AND MORTGAGE LOAN OFFICER IMPRISONED FOR FRAUD
Two realtors and a mortgage loan officer were sentenced in U.S. District Court after earlier guilty pleas
to conspiracy, wire fraud, and money laundering. The two realtors were sentenced to 48 months and 18
months, respectively, and 3 years supervised release. The mortgage loan officer was sentenced to 36 months
incarceration and 3 years supervised release. From 2001 to August 2011, these individuals acquired more
than 40 properties and then recruited buyers to purchase the properties at inflated prices. The three acted
as the buyers’ real estate agents, prepared loan applications with false information for the borrowers, created
false documents in support of those applications, and then processed those applications for mortgage loans
through the loan officer. Many of those mortgages resulted in foreclosure, and losses to FHA are expected to
reach $3.7 million. This investigation was conducted by HUD OIG, IRS-CI, the FBI, and the Special Inspector
General for the Troubled Asset Relief Program. (Hartford, CT)




14
                                                                      CHAPTER TWO PUBLIC AND INDIAN HOUSING PROGRAMS




 TWO         PUBLIC AND INDIAN
             HOUSING PROGRAMS


The U.S. Department of Housing and Urban Development (HUD) provides grants and subsidies to more than
4,100 public housing agencies (PHA) nationwide. Many PHAs administer both public housing and Section 8
programs. HUD also provides assistance directly to PHAs’ resident organizations to encourage increased resident
management entities and resident skills programs. Programs administered by PHAs are designed to enable
low-income families, the elderly, and persons with disabilities to obtain and reside in housing that is safe, decent,
sanitary, and in good repair. Some of the highlights from this semiannual period are noted below.



AUDIT

STRATEGIC INITIATIVE 2: CONTRIBUTE TO THE REDUCTION OF ERRONEOUS
PAYMENTS IN RENTAL ASSISTANCE

           Key program results                     Questioned costs                Funds put to better use

     Audit                10 audits                   $95,003,635                         $ 4,548,410




PUBLIC HOUSING
The HUD Office of Inspector General (OIG) audited HUD’s oversight of public and Indian housing program
interfund transactions to determine whether HUD (1) had adequate procedures to identify, monitor, and
evaluate PHAs with interfunds and (2) took appropriate actions to curtail improper practices when borrowing
from restricted HUD programs was found.
    HUD officials adequately identified interfund balances, communicated this information to field offices,
and adequately evaluated annual contributions contracts and regulatory restrictions on interfunds.  However,
they did not always take timely and effective action to enforce program fund restrictions by notifying PHAs
to reimburse interfunds in a timely manner, maintain proper accounting controls, and avoid recurring
interfunds.  As a result, there were recurring interfund balances at 161 PHAs involving the use of restricted
Section 8 funds for nonprogram purposes.  The most serious of these deficiencies were at two PHAs, where
more than $2.2 million in Section 8 program interfund transaction balances continued to exist.




                                                                                                                  15
SEMIANNUAL REPORT TO CONGRESS



     OIG recommended that HUD develop and implement standard procedures to ensure the timely and
effective control of PHAs’ use and reimbursement of interfunds and ensure the reimbursement of interfunds
to the appropriate programs by the two PHAs identified. (Audit Report: 2014-BO-0001)
     HUD OIG audited the Housing Authority of the City of Bridgeport, CT, to determine whether Authority
officials ensured that expenses charged to Federal programs were eligible, reasonable, and supported.
     Authority officials did not always ensure that expenses charged to the Authority’s Federal programs
were eligible, reasonable, and supported.  Specifically, they did not (1) properly charge and support all
costs allocated to Federal housing programs, (2) adequately manage maintenance costs, and (3) ensure
that employee health care and liability insurance policies were obtained at the most cost-effective price. 
As a result, ineligible costs of more than $895,000 were incurred, and more than $790,000 in charges was
unsupported.  These improper charges weakened the projects’ financial position and left fewer funds for
operations.  Also, with diminishing budgets and staffing levels, diverting staff from Federal to non-Federal
properties could result in degraded maintenance at the Federal properties.
     OIG recommended that HUD require Authority officials to (1) repay the ineligible costs and support or repay
the unsupported costs charged to the Authority’s Federal programs, (2) measure and monitor the maintenance
staff’s productivity and rotate work schedules to avoid unnecessary overtime costs, (3) develop procedures to
competitively obtain insurance, and (4) train staff on asset management rules. (Audit Report: 2014-BO-1001)



SECTION 8 HOUSING CHOICE VOUCHER PROGRAM
HUD OIG audited the Housing Authority of the City of Paterson, NJ’s Housing Choice Voucher program to
determine whether Authority officials had implemented adequate controls to ensure that the program was
administered in accordance with HUD regulations and the Authority’s own administrative plan. 
     The Authority lacked adequate controls to ensure that its program was administered in accordance with
regulations.  Specifically, it lacked documentation showing that assisted rental units were inspected annually
and annual quality control inspections were performed, and some units did not comply with housing quality
standards.  As a result, housing assistance of nearly $3.8 million was paid for units without evidence that
they complied with housing quality standards. In addition, documentation was inadequate to support that
rental subsidy amounts were accurately calculated, all tenants were eligible for subsidies, and applicants were
properly selected from the waiting list.  Consequently, nearly $185,000 in questionable housing assistance was
disbursed, and HUD lacked assurance that tenants were properly selected from the waiting list. 
     Further, financial controls were not adequate to ensure that port-in receivables were collected, duplicate
housing assistance payments were not made, and uncashed checks disbursed to landlords and tenants
were adequately monitored.  As a result, Authority officials failed to collect all receivables on behalf of
port-in tenants and lacked assurance that housing assistance payments were not made for vacant units
and outstanding checks to landlords and tenants were cashed within a reasonable timeframe.  In addition,
Authority officials did not properly execute a contract or adequately monitor the status of the contractor’s
performance against the contract provisions.  Consequently, the contractor was paid in excess of the small
procurement threshold. 
     OIG recommended that HUD instruct Authority officials to provide documentation to support that
assisted units complied with housing quality standards and strengthen controls over the unit inspection,
tenant certification, port-in receivables collection, and procurement processes. (Audit Report: 2014-NY-1001)




16
                                                                    CHAPTER TWO PUBLIC AND INDIAN HOUSING PROGRAMS



    HUD OIG reviewed HUD’s monitoring and administration of the Family Self-Sufficiency (FSS) program
under the Housing Choice Voucher program to determine whether HUD officials sufficiently monitored
PHAs’ use of the program and evaluated its outcome. OIG also wanted to determine whether HUD ensured
that PHAs properly monitored the participants’ progress while in the program and upon graduation and
documented the program benefit.
    Due to the priority of the Housing Choice Voucher program over the FSS program and a lack of resources,
HUD officials did not (1) sufficiently monitor PHAs, (2) encourage the use of the FSS program, (3) evaluate
its overall outcome, and (4) determine whether PHAs properly monitored the participating families’ progress
while in the program.  In addition, HUD officials did not require PHAs to track participating families after
program graduation or document the program benefit in terms of realized cost savings resulting from reduced
or eliminated rental assistance.
    OIG recommended that HUD develop policies and procedures to periodically verify the timeliness,
completeness, and accuracy of key performance data, such as FSS program enrollment, participant progress,
escrow accounts, and program exits that PHAs self-report through HUD’s Public and Indian Housing
Information Center system.  In addition, if the fiscal year 2014 program coordinator funding for the Housing
Choice Voucher and public housing FSS programs is combined, HUD should consider disbursing the new
grant through its Line of Credit Control System, which would require PHAs to request the grant payments and
enable HUD officials to manually approve payment requests, if necessary, to prevent the misuse of funds or
ensure that required performance reports are submitted.  Also, HUD should establish and implement a system
to identify best practices and recommendations that would improve the effectiveness of the FSS program.
(Audit Memorandum: 2014-NY-0801)



AMERICAN RECOVERY AND REINVESTMENT ACT OF 2009
HUD OIG audited HUD’s Boston, MA, Office of Public Housing to determine whether the Boston Office’s
oversight of public housing environmental reviews within its jurisdiction ensured that (1) the responsible
entities (for example, local municipalities such as a city government) performed the required reviews and (2)
HUD did not release funds until all required documents were submitted.
    The Boston Office did not provide adequate oversight to three PHAs to ensure that the responsible entities
properly completed and documented environmental reviews.  Further, it did not maintain sufficient internal
control records. As a result, three PHAs spent more than $85 million, including more than $39 million in
American Recovery and Reinvestment Act of 2009 (ARRA) grant funds, for projects that either did not have
required environmental reviews or had environmental reviews that were not adequately supported.   
    OIG recommended that HUD require the three PHAs to (1) repay HUD, for transmission to the U.S.
Treasury, more than $4.8 million and support or repay more than $34 million in ARRA funds, (2) support or
repay HUD more than $45 million in Public Housing Capital Fund grant funds, and (3) take available actions
against the three PHAs and their responsible entities. (Audit Report: 2014-FW-0001)


HUD OIG reviewed the public housing programs of the Colfax Housing Authority in Colfax, LA, to
determine whether the Authority administered its HUD public housing programs in accordance with
regulations and guidance.
    The Authority did not properly oversee its public housing programs.  Specifically, it (1) made
disbursements that lacked adequate supporting documentation; (2) made unsubstantiated payments to its
employees; (3) issued payroll checks to the previous executive director’s wife, a nonemployee; (4) cashed
certificates of deposit without sufficient explanations; (5) misused cash received from salvaged equipment;
(6) did not follow HUD’s and its own procurement requirements; (7) could not account for 22 of 89 appliances




                                                                                                               17
SEMIANNUAL REPORT TO CONGRESS



purchased with ARRA funds; (8) did not maintain true and accurate records of its board meetings and
resolutions; and (9) did not properly maintain adequate documentation for its housing programs’ waiting lists. 
     OIG recommended that HUD require the Authority to (1) support or repay more than $1 million to its
programs or HUD, as applicable, for questioned costs, including more than $100,000 in ARRA funds; (2)
provide complete, accurate inventory records to identify the appliances purchased with ARRA funds and
the number of missing appliances; (3) develop adequate written accounting and disbursement policies and
procedures; (4) maintain an adequate contract administration system; and (5) provide HUD-approved training
to its board to ensure that the commissioners receive written instructions on their roles and responsibilities.
(Audit Memorandum: 2014-FW-1801)



INVESTIGATION

PROGRAM RESULTS

 Administrative-civil actions                            35

 Convictions-pleas-pretrial diversions                   104

 Financial recoveries                               $4,790,023




FORMER PHILADELPHIA HOUSING AUTHORITY EMPLOYEE SENTENCED
A former maintenance worker of the Philadelphia Housing Authority was sentenced in U.S. District Court to
13 months incarceration and 3 years probation and ordered to pay restitution in the amount of $348,900 to
the Authority. From 2002 through 2011, the maintenance worker conspired with others to purchase building
materials with Authority funds, steal those materials, and then sell them for his own profit. This investigation
was conducted by HUD OIG and the Federal Bureau of Investigation (FBI). (Philadelphia, PA)



FORMER HOUSING AUTHORITY DIRECTOR AND HUSBAND SENTENCED
A former executive director of the Taos County, NM, Housing Authority was sentenced in U.S. District Court
to 30 months incarceration, and her husband was sentenced to 24 months incarceration for embezzling
more than $800,000 in HUD Section 8 rental subsidy funds. The two were also ordered to pay restitution in
the amount of $786,014, jointly and severally. From 2003 through 2011, the former executive director created
fraudulent Section 8 checks, made payable to her husband, and deposited those checks into bank accounts
she and her husband controlled. This investigation was conducted by HUD OIG. (Taos, NM)




18
                                                                    CHAPTER TWO PUBLIC AND INDIAN HOUSING PROGRAMS



NARRAGANSETT INDIAN WETUOMUCK HOUSING AUTHORITY OFFICIAL SENTENCED
The former executive director of the Narragansett Indian Wetuomuck Housing Authority was sentenced in
U.S. District Court to 1 year and 1 day in prison and ordered to pay restitution in the amount of $120,000
based on her earlier guilty plea to theft from programs receiving Federal funds.  Between October 2008 and
June 2009, the executive director embezzled money from the Authority and used it for personal expenses,
including gambling and purchases of electronics, cameras, and Christmas decorations. This investigation was
conducted by HUD OIG.  (Providence, RI)



HOUSING AUTHORITY EMPLOYEE ORDERED TO REPAY $600,000
A former employee of the Housing Authority of New Orleans was sentenced in U.S. District Court to 5 years
probation and ordered to pay restitution in the amount of $661,094 to the Authority. Between April 2007 and
May 2009, the employee conspired with a former Authority procurement officer to create fraudulent purchase
orders to steal Authority funds. This investigation was conducted by HUD OIG. (New Orleans, LA)  



FORMER HUNTINGTON HOUSING AUTHORITY EMPLOYEE SENTENCED
The former Shelter Plus Care coordinator for the Huntington, WV, Housing Authority was sentenced in U.S.
District Court to 12 months and 1 day imprisonment and 36 months probation and ordered to pay $23,173 in
restitution to the Authority.  While employed at the Authority, the coordinator diverted payments to a fictitious
landlord that she had created and used those funds for her own purposes. This investigation was conducted
by HUD OIG and the FBI. (Huntington, WV)



DEVELOPER SENTENCED TO 51 MONTHS IN PRISON FOR EMBEZZLEMENT
A former developer for the Navajo Housing Authority was sentenced in U.S. District Court to 51 months
imprisonment and 36 months supervised release following a conviction of two counts of embezzlement from
an Indian tribal organization.  From 2003 through 2005, the developer submitted grant payment requests to
the Fort Defiance Housing Corporation, a subgrantee for the Authority, for specific construction costs and then
used more than $2 million of those grant funds for personal expenses, including gambling and thoroughbred
racehorse training. This investigation was conducted by HUD OIG. (Las Vegas, NV)




                                                                                                               19
SEMIANNUAL REPORT TO CONGRESS




  THREE          MULTIFAMILY HOUSING PROGRAMS




In addition to multifamily housing developments with U.S. Department of Housing and Urban Development
(HUD)-insured mortgages, HUD owns multifamily projects acquired through defaulted mortgages, subsidizes rents
for low-income households, finances the construction or rehabilitation of rental housing, and provides support
services for the elderly and handicapped. Some of the highlights from this semiannual period are shown below.



AUDIT

STRATEGIC INITIATIVE 2: CONTRIBUTE TO THE REDUCTION OF ERRONEOUS
PAYMENTS IN RENTAL ASSISTANCE

          Key program results                      Questioned costs               Funds put to better use

     Audit                4 audits                    $3,046,833                         $21,423,291


OVERSIGHT OF SECTION 202 MULTIFAMILY HOUSING PROJECT REFINANCES
The HUD Office of Inspector General (OIG) audited HUD’s oversight of Section 202 multifamily housing
project refinances to determine whether HUD had adequate controls to ensure that Section 202 refinancing
was conducted in an effective and efficient manner.
     HUD did not have adequate controls to ensure that all Section 202 refinancing resulted in economical
and efficient outcomes.  Specifically, (1) HUD did not ensure that at least half of the debt service savings that
resulted from refinancing was used to benefit tenants or reduce housing assistance payments, (2) consistent
accountability for the debt service savings was not always maintained, and (3) some refinancing was processed
for projects that had negative debt service savings, which resulted in higher debt service costs than before
the refinancing. As a result, millions of dollars in debt service savings may not have been used to benefit
tenants or for the reduction of housing assistance payments, HUD funds were not properly accounted for
and available, and some refinanced projects ended up costing HUD additional housing assistance payments
because of the additional cost for debt service.
     OIG recommended that HUD (1) develop and implement consistent nationwide policies for oversight and
monitoring of debt service savings, thereby ensuring that more than $21 million per year is used to benefit
tenants or reduce housing assistance payments; (2) direct field offices to account for debt service savings
and when possible, require the savings to be used to offset housing assistance payments; and (3) implement
procedures to ensure that refinancing complies with the requirement to generate positive debt service savings.
(Audit Report: 2014-NY-0001)




20
                                                                         CHAPTER THREE MULTIFAMILY HOUSING PROGRAMS




OVERSIGHT OF THE MCKINNEY ACT BOND REFUND PROGRAM
HUD OIG audited certain portions of HUD’s multifamily housing programs to determine whether (1) HUD
properly enforced requirements that regulated the application of automatic adjustment factors to Section 8
rents for projects that had bond refund savings to prevent excessive rents and (2) adjustments to receivables
due to HUD from bond refunds were properly supported.
    Violations occurred relative to HUD’s calculation of rents using automatic annual adjustment factors
for bond-refunded projects and justification and support for writeoffs of receivables due to HUD from
bond refunds.  Specifically, HUD paid more than $2.6 million in excessive Section 8 rents due to a pattern of
violations.  More than $2.7 million in questionable writeoffs of receivables due to HUD for bond refund savings
was also identified.  This amount included more than $2.6 million, which HUD wrote off without proper
justification, and more than $139,000 for which HUD could not locate or provide proper documentation to
show whether the writeoff was justified and supported.  OIG also identified the release of more than $143,000
in trust fund balances to entities outside HUD without proper support. 
    OIG recommended that HUD develop and implement procedures for (1) monitoring the calculation
of annual rent increases for Section 8 projects and the remittance of trust fund balances and (2) ensuring
that requests for adjustments to bond receivables are in accordance with requirements.  In addition, OIG
recommended that HUD initiate actions needed to ensure the enforcement of program requirements and the
proper resolution of the questioned costs. (Audit Report: 2014-AT-0001)



INVESTIGATION

PROGRAM RESULTS

 Administrative-civil actions                                      18

 Convictions-pleas-pretrial diversions                             30

 Financial recoveries                                         $2,154,489



PROPERTY MANAGER PLEADS GUILTY TO EMBEZZLEMENT
A property manager for a HUD-funded assisted living facility that services elderly and disabled persons pled
guilty in U.S. District Court. In 2009, the manager took responsibility for the company’s payroll and payment
functions and embezzled $588,121 in HUD program funds by manipulating the payroll systems to give herself
unauthorized salary increases and unauthorized mileage reimbursements. The manager also failed to report
the extra funds to the Internal Revenue Service (IRS), resulting in a tax loss of $126,019. This investigation was
conducted by HUD OIG and IRS-Criminal Investigation. (Columbus, OH)



PROJECT MANAGER GETS 3 YEARS IN PRISON FOR THEFT
A former multifamily apartment manager was sentenced in U.S. District Court to 41 months incarceration and
36 months probation and ordered to pay $206,000 in restitution to HUD and $28,737 to the IRS for her role in
a nearly $400,000 fraud scheme involving several HUD-insured and -subsidized apartment complexes.  From
2003 through 2009, the manager processed new subsidies for Section 8 tenants. During the initial reports,
the manager reported the tenants’ incomes correctly. Over time, as the tenants reported higher incomes,




                                                                                                                21
SEMIANNUAL REPORT TO CONGRESS



the HUD subsidy should have decreased, and the tenants’ portions of the rents should have increased. The
manager told the tenants that their share of the rent had increased but delayed entering the change into
HUD’s computer system. The manager embezzled the increased amount of the tenants’ rent payments. This
investigation was conducted by HUD OIG. (Kansas City, KS)



PRISON TIME FOR PROPERTY MANAGER – CIVIL CASE AGAINST COMPANY
The former assistant property manager of a HUD-subsidized apartment complex was sentenced in U.S.
District Court to 54 months incarceration and 3 years probation and ordered to pay $303,000 in restitution
to HUD. From 2005 through 2010, in exchange for cash bribes, the assistant property manager accepted
counterfeit citizenship documents from 24 illegal aliens and falsely reported to HUD that the tenants were
legally present and eligible to receive Section 8 housing subsidies. The tenants then received $519,165 in
Section 8 housing subsidies they were not eligible to receive. Ten of the tenants were sentenced to time
served and ordered to pay $133,000 in restitution, jointly and severally with the assistant property manager,
who also used the identity of another person to obtain $34,142 in Section 8 housing subsidies for herself. The
management company entered into a settlement in a related False Claims Act civil case and agreed to pay
HUD $640,000. This investigation was conducted by HUD OIG. (Kansas City, KS)




22
                                                                   CHAPTER FOUR COMMUNITY PLANNING AND DEVELOPMENT PROGRAMS




    FOUR         COMMUNIT Y PL ANNING AND
                 DEVELOPMENT PROGRAMS


The Office of Community Planning and Development (CPD) seeks to develop viable communities by promoting
integrated approaches that provide decent housing, suitable living environments, and expanded economic
opportunities for low- and moderate-income persons. The primary means toward this end is the development of
partnerships among all levels of government and the private sector. Some of the highlights from this semiannual
period are shown below.



AUDIT

STRATEGIC INITIATIVE 3: CONTRIBUTE TO THE STRENGTHENING OF COMMUNITIES

               Key program results                          Questioned costs                   Funds put to better use

         Audit                 12 audits2                       $26,651,401                           $101,476,470


The U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG), audited
HUD’s oversight of former redevelopment agencies, the Community Development Block Grant (CDBG)
program, the HOME Investment Partnerships Program (HOME), and economic development programs.


OVERSIGHT OF FORMER REDEVELOPMENT AGENCIES
HUD OIG audited HUD’s San Francisco and Los Angeles, CA, CPD field offices’ monitoring of CPD-funded
assets transferred by former redevelopment agencies to determine whether the field offices monitored grantees’
CPD-funded assets transferred by former redevelopment agencies to successor entities to minimize HUD’s risk. 
       The San Francisco and Los Angeles CPD field offices did not (1) monitor grantees’ CPD-funded assets
transferred by former redevelopment agencies to successor entities to minimize HUD’s risk and (2) did not
record and maintain accurate and complete lists of grantees’ CPD-funded assets or track CPD-funded assets
managed by the grantees’ former redevelopment agencies during the State’s mandated shutdown of the agencies. 
Therefore, there was no assurance that CPD had a complete and accurate account of CPD-funded assets.  As a
result, more than $99 million in CPD funds used to acquire assets by the defunct redevelopment agencies is at
risk of being transferred to entities that may not continue to meet HUD’s CPD program objectives.




2
    The total CPD audits, questioned costs, and funds put to better use amounts include any disaster recovery (2 audits) type
      audits conducted in the CPD area. The writeups for these audits may be shown in chapter 5 of this semiannual report.



                                                                                                                                  23
SEMIANNUAL REPORT TO CONGRESS



     OIG recommended that HUD (1) develop policies and procedures that allow for more proactive
monitoring of grantees’ CPD funding and assets, (2) establish a formal listing of assets funded through CPD,
and (3) require its grantees to provide adequate documentation supporting the grantees’ enforceable rights to
CPD-funded assets. (Audit Report: 2014-LA-0001)



COMMUNITY DEVELOPMENT BLOCK GRANT PROGRAMS
HUD OIG audited the City of Norfolk, VA’s CDBG program to determine whether the City justified its program
activities by ensuring that they were properly supported by adequate documentation and met national
objectives as required. 
     The City could not provide adequate documentation to justify nearly $2.5 million of more than $4 million
it spent on 12 of 16 activities reviewed.  In addition, 14 of the 16 activities were required to meet a national
program objective; however, the City could not demonstrate that the activities met or would meet their
designated objectives.  Of the 14 activities, 10, associated with nearly $4.1 million in program fund draws, were
more than 10 years old.  Further, the City was unable to provide documentation within a reasonable timeframe
to support more than $5 million it had drawn for 15 additional activities in the audit sample.  As a result, many
activities reviewed were extensively delayed, and the City could not demonstrate that a significant amount
of the program funds it drew was used to meet designated program objectives, such as benefiting low- and
moderate-income persons and eliminating slums or blight.
     OIG recommended that HUD require the City to (1) provide documentation or evidence to justify
unsupported program costs or repay the costs to its program from non-Federal funds, (2) provide a plan to
complete extensively delayed program activities, (3) implement policies to improve its record keeping and ensure
that program funds are fully supported by adequate documentation, and (4) implement effective planning
policies to ensure that program activities are not subjected to long delays. (Audit Report:  2014-PH-1001)
     HUD OIG audited the San Juan, PR, Office of the Commissioner for Municipal Affairs’ (OCMA) Puerto
Rico State CDBG Section 108 Loan Guarantee program to determine whether OCMA used Section 108 loan
proceeds on a project that met a national objective of the CDBG program and fully provided the intended
benefits.
     OCMA did not ensure that the Municipality of Vieques completed a Section 108 Loan Guarantee project
to construct a sports complex.  The project was abandoned and not completed, materials and equipment
acquired for its construction were unaccounted for, and the intended benefit was not realized.  As a result,
program objectives were not met, preventing low- and moderate-income persons from receiving the intended
benefits.  HUD also lacked assurance of the allowability of more than $10.8 million in State CDBG funds
invested in the unfinished project. In addition, in 2006, more than $37,000 was withdrawn from HUD to repay
the Section 108 loan; however, the loan was paid in full in 2003. No evidence was found to support that the
proceeds corresponded to a repayment.
     OIG recommended that HUD require OCMA to (1) submit a plan for the sports complex project within
30 days without proposing the use of additional HUD funds to implement it, (2) support the eligibility of
the State CDBG funds spent for the sports complex, (3) ensure that the Municipality maintains adequate
documentation related to the sports complex project, (4) submit supporting documentation showing the
eligibility and propriety of more than $37,000 drawn from HUD, and (5) correct any inaccurate information in
HUD’s information system related to the sports complex. (Audit Memorandum:  2014-AT-1801)




24
                                                              CHAPTER FOUR COMMUNITY PLANNING AND DEVELOPMENT PROGRAMS




HOME INVESTMENT PARTNERSHIPS PROGRAM
HUD OIG audited the Municipality of Arecibo, PR’s HOME program to determine (1) whether dwelling units
acquired under its home-ownership program complied with HUD’s housing standards and affordability
requirements and (2) whether the Municipality disbursed HOME funds within HUD-established timeframes and
reported accurate and supported information in HUD’s Integrated Disbursement and Information System.
     The Municipality did not ensure that home-buyer acquisition-only activities met housing standards and that
the principal residency requirement was met for the duration of the period of affordability.  In addition, it failed to
return more than $26,000 in unexpended drawdowns to HUD and did not support the eligibility of $30,000 in program
charges.  As a result, HUD had no assurance that more than $1 million disbursed was used solely for eligible purposes
and that HOME-funded activities met program objectives and fully provided the intended benefits. 
     The Municipality failed to reprogram and put to better use more than $3,900 in unexpended obligations
associated with an activity that was terminated, did not report more than $1,400 in program income, and
overstated the commitment amount for two activities by $919.  It reported other inaccurate information
concerning HOME-funded activities.  As a result, HUD had no assurance that the Municipality met HOME
program commitment and disbursement requirements.
     OIG recommended that HUD require the Municipality to (1) support that it spent more than $1 million on
eligible activities, (2) remit the unexpended drawdowns, (3) reprogram and put to better use nearly $5,000 in
unexpended and overstated commitments, and (4) develop and implement an internal control plan to ensure
that only supported and accurate information is reported to HUD. (Audit Report:  2014-AT-1001)



ECONOMIC DEVELOPMENT PROGRAMS
HUD OIG audited the City of Detroit, MI’s Neighborhood Stabilization Program-funded demolition activities under
the Housing and Economic Recovery Act of 2008 to determine whether the City complied with Federal regulations
in its (1) maintenance of accounting records for activities and (2) drawing down of Program funds for activities.
     The City did not maintain records that adequately identified the source and application of funds provided for
its activities.  Further, it inappropriately drew down Program funds (1) when it had fire insurance funds and Program
refunds available and (2) for duplicate demolition costs.  As a result, nearly $2.3 million in Program funds was not
available for eligible Program costs.  Further, the U.S. Treasury paid more than $76,000 in unnecessary interest on
Program funds that the City inappropriately drew down when it should have used available fire insurance funds.
     OIG recommended that HUD ensure that the City spent nearly $2.1 million in fire insurance funds and
Program refunds for eligible Program costs.  OIG also recommended that HUD require the City to (1) use
nearly $204,000 in fire insurance funds and duplicate Program drawdowns for eligible Program costs, (2)
reimburse HUD from non-Federal funds for the unnecessary interest paid by the U.S. Treasury, (3) maintain
adequate accounting records for activities, and (4) implement adequate procedures and controls to address
the finding cited. (Audit Report: 2014-CH-1002)



INVESTIGATION

PROGRAM RESULTS

 Administrative-civil actions                                            12

 Convictions-pleas-pretrial diversions                                   17

 Financial recoveries                                              $8,214,873




                                                                                                                          25
SEMIANNUAL REPORT TO CONGRESS



FORMER NONPROFIT EMPLOYEE SENTENCED
A former nonprofit employee was sentenced in U.S. District Court to 32 months incarceration and 36 months
probation and ordered to pay $385,242 in restitution after an earlier guilty plea for theft of government funds. While
working at a nonprofit organization, which receives supportive housing funds and homelessness prevention funds
from HUD, the Federal Emergency Management Agency, and the Michigan State Housing Development Authority,
the former employee converted Federal funds for her own personal use. This investigation was conducted by HUD
OIG, the U.S. Department of Homeland Security OIG, and the Federal Bureau of Investigation (FBI). (Detroit, MI)



THREE YEARS IN PRISON FOR FORMER NONPROFIT EXECUTIVE DIRECTOR
A former executive director of a now-defunct nonprofit organization in New York was sentenced in U.S.
District Court to 3 years imprisonment and 2 years probation and ordered to pay restitution in the amount of
$642,680 to HUD and the New York State Department of Welfare after earlier guilty pleas to conspiracy, theft of
Federal funds, and mail fraud. From 2007 through 2011, the executive director falsely certified to HUD that he
was operating and managing transitional housing units in Brooklyn, NY. However, he used HUD’s Supportive
Housing Program funds for his personal use. This investigation was conducted by HUD OIG. (Orlando, FL)



DEVELOPER SENTENCED IN KICKBACK SCHEME
A developer was sentenced in U.S. District Court to 24 months supervised release and ordered to pay $98,333
in restitution to the New York City Department of Housing Preservation and Development following an earlier
guilty plea to theft or bribery concerning federally funded programs.  From approximately January 2006
through October 2011, the developer solicited and received kickback payments in return for the award of
general contracting work on Department projects.  This investigation was conducted by HUD OIG, the U.S.
Department of Labor (DOL) OIG, the Internal Revenue Service-Criminal Investigation (IRS-CI), the FBI, and
the New York City Department of Investigations. (Brooklyn, NY)



DEVELOPER GETS 7 YEARS IN PRISON FOR $21 MILLION SCHEME
A developer was sentenced in U.S. District Court to 87 months imprisonment and 24 months probation and
was ordered to pay restitution totaling almost $21 million to multiple victims, including more than $6 million
in HUD CDBG-Section 108 guaranteed loans from the City of Harrisburg, PA, and Dauphin County, PA, after
pleading guilty to diverting Federal funds.  From 2005 through 2009, the developer raised funds from multiple
sources for the construction of the Capital View Commerce Center in Harrisburg.  The developer then diverted
millions of dollars of those loan funds into investment accounts he controlled and a company he secretly
owned, which was purportedly working on the contract.  At the time of the scheme, the City of Harrisburg was
experiencing financial difficulties.   The project was heralded as an opportunity for economic growth for the
local economy.  This investigation was conducted by HUD OIG, IRS-CI, and the FBI. (Harrisburg, PA)



FORMER COLUMBUS URBAN LEAGUE DIRECTOR INCARCERATED
A former director of an education services corporation was sentenced in U.S. District Court to 42 months
incarceration and ordered to pay restitution in the amount of $85,181 to the corporation and its insurance company
following earlier guilty pleas to bank fraud and identity theft. From 2004 to 2010, the director prepared and
submitted false invoices for payment to the corporation, which received HUD CDBG funds and American Recovery
and Reinvestment Act funds for community outreach and education programs. The staff then prepared checks
to pay the invoices, and the checks were deposited by the director into bank accounts under his control. This
investigation was conducted by HUD OIG, DOL OIG, and the Columbus Police Department. (Columbus, OH)




26
                                                                                CHAPTER FIVE DISASTER RECOVERY PROGRAMS




  FIVE         DISASTER RECOVERY PROGRAMS




As a result of the high number of disasters, Congress has regularly provided supplemental appropriations
through the U.S. Department of Housing and Urban Development’s (HUD) Community Development Block
Grant (CDBG) program to help communities recover from natural and man-made disasters. HUD has used
the CDBG program because it is a flexible program, which allows CDBG Disaster Recovery (CBDG-DR) grants
to address a wide range of challenges. Over the past several years, disaster funding for HUD has exceeded $36
billion. These active disaster grants nationwide have approximately $31 billion in obligations and $25 billion in
disbursements. A breakdown is provided as follows:



• Of the total $16 billion ($15.18 billion after sequester) that was provided for Superstorm Sandy, $10.4 billion
 has been allocated for the recovery area, and approximately $1.7 billion has been obligated with $1.2 billion
 disbursed to date.
• Of the $19.6 billion that was provided for Hurricanes Katrina, Rita, and Wilma, $18.1 billion, or 92 percent of
 the funds, has been disbursed for the period ending March 31, 2014.
• Of the $6.1 billion that was provided for Hurricanes Ike, Gustav, and Dolly, $3.1 billion, or 52 percent of the
 funds, has been disbursed for the period ending March 31, 2014.
• Of the $3.4 billion provided for the “9-11” disaster in New York, $3.0 billion, or 87 percent, has been disbursed
 for the period ending March 31, 2014.
• Of the $780 million remaining for all other active disasters, $304 million, or 39 percent of the funds, has been
 disbursed for the period ending March 31, 2014.



In the wake of Superstorm Sandy, the HUD Office of Inspector General (OIG) received $10 million from the Sandy
Emergency Supplemental appropriation for necessary costs of overseeing and auditing the disaster funds made
available. Superstorm Sandy was the deadliest and most destructive hurricane of the 2012 Atlantic hurricane
season, as well as the second costliest hurricane in United States history. As a result, Superstorm Sandy was
blamed for at least 181 deaths in the United States – including 68 in New York and 71 in New Jersey – and
property damages estimated at $65 billion.




                                                                                                                       27
SEMIANNUAL REPORT TO CONGRESS



STRATEGIC INITIATIVE 3: CONTRIBUTE TO THE STRENGTHENING OF COMMUNITIES

AUDIT

             Key program results                       Questioned costs                    Funds put to better use

       Audit                 2 audits3                     $2,165,915                                $0


HUD OIG audited the State of Mississippi’s CDBG-DR program to determine whether the State ensured that
(1) appraisers complied with the terms of appraisal agreements and Federal requirements and (2) projects and
growth projections were reasonable and adequately supported.
       The State did not ensure that its subrecipient, Harrison County Utility Authority, and its appraisers
complied with the terms of appraisal agreements for the appraisal of property acquired under the State’s Gulf
Coast Regional Infrastructure Program.  The State could not support more than $7,000 paid for appraisals that
did not meet standards and lacked assurance that land purchased for more than $2.1 million was appraised
at a reasonable price.  Further, the State did not fully implement adequate controls and procedures to ensure
(1) that the need for and capacity of water and wastewater treatment facilities constructed addressed needs
created by Hurricane Katrina or supported economic development and (2) the proper designation and
completion of emergency activities.  As a result, disaster funding of more than $653 million was approved to
construct 67 facilities that may include some plants, the capacity of which was either too small or excessive,
and other plants that may not have been needed.  In addition, more than $9.6 million in disaster funds was
approved for a facility based on an emergency requirement when the facility did not meet the definition of an
emergency requirement.
       OIG recommended that HUD require the State to support the unsupported appraisal fees and
property acquisition costs and fully implement procedures and controls to address the findings cited.
(Audit Report: 2014-AT-1004)
       HUD OIG audited the City of Joplin, MO’s CDBG-DR program to determine whether the City complied
with CDBG-DR regulations.
       The City complied with CDBG-DR regulations.  It generally performed contracting activities, obligated
and expended its disaster funds, and conducted other initial program actions in accordance with applicable
regulations.  This was a limited audit since the City had procured only two CDBG-DR-related items, obligated
only $50,000, and expended more than $20,000 of its $45.2 million in CDBG-DR funds at the time of the audit. 
OIG audited 100 percent of the City’s obligations and 49 percent of its expenditures.
       OIG made no formal recommendations, and no further action is necessary. (Audit Report: 2014-KC-1002)




3
    The disaster recovery program reviews are community planning and development audits.




28
                                                 CHAPTER SIX OTHER SIGNIFICANT AUDITS, INVESTIGATIONS, AND EVALUATIONS




  SIX        OTHER SIGNIFICANT AUDITS,
             INVESTIGATIONS, AND EVALUATIONS



AUDIT

STRATEGIC INITIATIVE 4: CONTRIBUTE TO IMPROVING HUD’S EXECUTION
OF AND ACCOUNTABILITY FOR FISCAL RESPONSIBILITIES AS A RELEVANT AND
PROBLEM-SOLVING ADVISOR TO THE DEPARTMENT

          Key program results                    Questioned costs                 Funds put to better use

     Audit               16 Audits                   $148,000                          $1,002,866,852


The U.S. Department of Housing and Urban Development, Office of Inspector General’s (HUD OIG) more
significant audits are discussed below.



AUDIT OF HUD’S FISCAL YEAR 2013 AND 2012 FINANCIAL STATEMENTS
HUD OIG is required to annually audit the consolidated financial statements of HUD in accordance with
the Chief Financial Officers Act of 1990 as amended. This report supplements OIG’s report on the results
of its audit of HUD’s principal financial statements for the fiscal years ending September 30, 2013 and
2012 (restated). Also provided are assessments of HUD’s internal controls and OIG’s findings with respect
to HUD’s compliance with applicable laws, regulations, and governmentwide policy requirements and
provisions of contracts and grant agreements. 
    In OIG’s opinion, HUD’s fiscal years 2013 and 2012 (restated) financial statements were fairly
presented except for the (1) statement of budgetary resources lines impacted by the accounting for
programs from the Office of Community Planning and Development (CPD) and Government National
Mortgage Association (Ginnie Mae) and (2) accounting and presentation of balance sheet and statement
of net cost lines affected by HUD’s implementation of U.S. Treasury cash management requirements in
the Office of Public and Indian Housing’s Housing Choice Voucher program.




                                                                                                                  29
SEMIANNUAL REPORT TO CONGRESS



       OIG’s audit and the reports of the other auditors4 disclosed a total of 4 material weaknesses,
11 significant deficiencies in internal controls, and 5 instances of noncompliance with applicable laws
and regulations. 


Material Weaknesses
•C
  PD’s formula grant accounting did not comply with generally accepted accounting principles (GAAP),
    resulting in misstatements on the financial statements.

•T
  he Office of Public and Indian Housing’s Housing Choice Voucher program cash management process
    departed from GAAP and U.S. Treasury requirements.

•F
  inancial management systems weaknesses continued to challenge HUD.

•T
  here were weaknesses in HUD’s consolidated financial statement preparation and reporting processes.


Significant Deficiencies
•H
  UD lacked GAAP-compliant policies for accruals.

• Weaknesses in the reporting of HUD’s accounts receivable continued.

• Weaknesses in HUD’s administrative control of funds system continued.

•H
  UD continued to report significant amounts of invalid obligations.

• HUD’s financial management governance structure and internal controls over financial reporting were ineffective.

• Weaknesses in HUD’s rental housing assistance program monitoring continued.

•F
  inancial and program management controls over the Emergency Homeowners Loan Program were weak.

•H
  UD’s computing environment controls had weaknesses.

• Federal Housing Administration (FHA) undelivered orders should be reviewed annually and deobligated promptly.

•F
  HA’s new system reporting and reconciliation capabilities need improvement.

•G
  innie Mae’s master subservicer provided inaccurate accounting reports.

Noncompliance
•H
  UD did not substantially comply with the Federal Financial Management Improvement Act.

•H
  UD did not substantially comply with the Anti-Deficiency Act.

•H
  UD did not comply with the HOME Investment Partnerships Act.

•H
  UD did not comply with the Federal Information Security Management Act.

•F
  HA did not comply with the Cranston-Gonzalez National Affordable Housing Act of 1990.

       OIG identified $259 million in excess obligations and recommended that HUD recapture at least $643.6 million
in excess Section 8 funding held in public agencies’ net restricted asset accounts. (Audit Report: 2014-FO-0003)




4
    2014-FO-0002, Audit Report of the Federal Housing Administration’s Financial Statements, issued December 13, 2013, and
     2014-FO-0001, Audit Report of the Government National Mortgage Association Financial Statements, issued December 6, 2013




30
                                                CHAPTER SIX OTHER SIGNIFICANT AUDITS, INVESTIGATIONS, AND EVALUATIONS




AUDIT OF THE FEDERAL HOUSING ADMINISTRATION’S FINANCIAL STATEMENTS FOR
FISCAL YEARS 2013 AND 2012
In accordance with the Government Corporation Control Act as amended (31 U.S.C. (United States
Code) 9105), HUD OIG engaged CliftonLarsonAllen LLP to audit the fiscal years 2013 and 2012 FHA
financial statements. The report contained two significant deficiencies in FHA’s internal control
and one reportable instance of noncompliance with laws and regulations. It contained 11 new
recommendations.
    The first of the two significant deficiencies related to a review of FHA’s undelivered orders,
which found (1) inactive obligations, (2) disbursements in excess of obligated amounts, and (3)
deobligations of inactive contracts not recognized in the Single Family Asset Management System.
While the FHA Comptroller’s Office requests followed up on open obligations, OIG did not identify
any FHA policies and procedures that would implement HUD’s annual review of undelivered orders
and obligations. If undelivered orders are not reviewed on a timely basis, unobligated balances
carried forward could be misstated. In addition, inadequate controls could lead to Anti-Deficiency
Act violations and disbursements without proper approval, and evidence of payments may lead to
waste and abuse of resources.
    The second significant deficiency related to data integrity issues as a result of FHA’s transition
to a new system (Home Equity Reverse Mortgage Information Technology (HERMIT)) for managing
insured and assigned home equity conversion mortgage loans. There were discrepancies between
the reports generated from the new system and reports from the general ledger and other source
systems that could not be adequately explained during the reconciliation process. These differences
raised concerns about the completeness and accuracy of the data in the HERMIT system and about
the movement of data among other FHA systems and the general ledger. Further, they indicated a
weakness in internal controls. Due to the unexplainable differences, OIG was unable to determine
whether the discrepancies were caused by timing differences among files or reports, interface issues
among systems, conversion problems with HERMIT data, or any combination of these causes. The
reported law and regulation noncompliance was due to FHA’s failure to comply with the Cranston-
Gonzales National Affordable Housing Act of 1990 requirement that FHA’s Mutual Mortgage Insurance
(MMI) Fund maintain a minimum level of capital sufficient to withstand a moderate recession. This
capital requirement, termed the “capital ratio,” is defined as capital resources (assets minus current
liabilities), less the liability for future claim costs (net of future premiums and recoveries), divided by
the value of amortized insurance-in-force. The Act requires FHA to maintain a minimum capital ratio
of 2 percent and conduct an annual independent actuarial study to, among other things, calculate
this ratio. The Housing and Economic Recovery Act of 2008 requires that the HUD Secretary submit a
report annually to Congress describing the results of the study, assess the financial status of the MMI
Fund, recommend program adjustments, and evaluate the quality control procedures and accuracy
of information used in the process of underwriting loans guaranteed by the MMI Fund. As of the
date of the audit, this report for fiscal year 2013 had not been submitted to Congress, but preliminary
FHA data indicated that this ratio remained below the required 2 percent throughout fiscal year 2013.
(Audit Report: 2014-FO-0002)




                                                                                                                 31
SEMIANNUAL REPORT TO CONGRESS




AUDIT OF THE GOVERNMENT NATIONAL MORTGAGE ASSOCIATION FISCAL YEARS
2013 AND 2012 FINANCIAL STATEMENTS
In accordance with the Government Corporation Control Act as amended (31 U.S.C. 9105), HUD OIG
engaged the independent certified public accounting firm of CliftonLarsonAllen LLP to audit Ginnie Mae’s
fiscal years 2013 and 2012 financial statements. The report contains one significant deficiency in internal
control over financial reporting. 
     Ginnie Mae’s significant deficiency relates to contractor-prepared monthly loan-level accounting
reports that contain inaccurate information. Ginnie Mae first noted, in fiscal year 2012, discrepancies
within different elements of the accounting reports. It also noted that loans, which were being transferred
to FHA as a claim, were still being reported to Ginnie Mae as open on the accounting reports. These
reports were used by Ginnie Mae and are an integral part of its financial reporting process. The monthly
accounting reports were inaccurate because the contractor did not have effective integrated systems to
accumulate data necessary to generate monthly accounting reports accurately and reliably for Ginnie
Mae. (Audit Report: 2014-FO-0001)



INVESTIGATION

FORMER HUD EMPLOYEE IMPRISONED FOR STALKING AND THREATS
A former HUD employee was sentenced in Rancho Cucamonga Superior Court to 3 years for
stalking, threats, and computer fraud. From 2010 through 2012, the former employee telephonically
stalked at least nine individuals, four of whom were HUD employees, sending them threatening
and obscene text messages. During that time, the former employee also used a thumb drive to
access a HUD employee’s computer to record her typing and gain access to her information. This
investigation was conducted by HUD OIG and the Los Angeles District Attorney’s Office. (Rancho
Cucamonga, CA)



EVALUATIONS

INFORMATION TECHNOLOGY SECURITY PROGRAM
HUD’s information technology (IT) systems contain sensitive information that is central to its
mission and is used to administer its programs. OIG is required to annually evaluate HUD’s
information security program. During this semiannual period, OIG completed its fiscal year 2013
Federal Information Security Management Act (FISMA) evaluation and annual report to the Office
of Management and Budget. OIG found that many areas in HUD’s information security program did
not comply with FISMA, and HUD had not established or implemented a risk-based program that
allowed it to effectively manage its information and IT security risks. HUD lacked several foundational
components that are essential for an effective Federal agency IT security program. Specifically, HUD




32
                                              CHAPTER SIX OTHER SIGNIFICANT AUDITS, INVESTIGATIONS, AND EVALUATIONS



is required to report on 109 metrics, established by the U.S. Department of Homeland Security, which
span 11 IT program areas. OIG determined that HUD had not satisfied 75 percent of those metrics and
improvements were needed in all program areas. HUD’s system inventory and system authorization
boundaries were not fully documented, and all systems did not have a valid authority to operate. The
governance structure for HUD’s IT security program was underdeveloped and had experienced ongoing
staff turnover in key leadership positions. HUD has a major management challenge ahead as it moves
forward in establishing a compliant and effective program. During fiscal year 2013, OIG made 62
recommendations for improving HUD’s information security program.




                                                                                                               33
SEMIANNUAL REPORT TO CONGRESS




INVESTIGATION OF HUD LOBBYING ACTIVITIES
On February 26, 2014, Inspector General Montoya testified before the U.S. House of Representatives,
Committee on Financial Services, Subcommittee on Oversight and Investigations. The hearing was entitled
“Inspector General Report: Allegations of Improper Lobbying and Obstruction at the Department of Housing
and Urban Development.”
     The hearing was a result of a request from the subcommittee regarding an email communication sent
by former HUD Deputy Secretary Maurice Jones on July 31, 2013. The email called on recipients to contact
specific U.S. senators and encourage them to vote in favor of procedural motions to advance consideration of
legislation making appropriations for fiscal year 2014 for the U.S. Department of Transportation, HUD, and
related agencies. The email also urged recipients to oppose certain amendments and suggested that they
encourage named senators to support final passage of the bill.
     The subcommittee’s correspondence suggested that the directness and specificity of the email appeared
to violate well-established Federal restrictions on lobbying by Federal agencies and, based on the apparent
violations of Federal law, requested that OIG thoroughly investigate the matter and advise the subcommittee.
The following is an excerpt of Inspector General Montoya’s oral testimony:



        Our subsequent investigation disclosed that the decision to send the July 31st email was based on having
        the HUD Secretary or Deputy Secretary engage in a more “aggressive lobbying effort” [sic] relative to
        legislation or an appropriation. The catalyst for this new posture was then General Deputy Assistant
        Secretary for Congressional and Intergovernmental Relations, Elliot Mincberg. We determined this email
        was a grassroots lobbying campaign on a matter that was pending before Congress.


        At the time the July 31st email was drafted and sent, HUD’s internal policies regarding lobbying were
        longstanding and designed to create not only the appearance of ethical behavior, but to include actual
        guidelines to ensure ethical behavior by all employees of the Department, including presidentially
        appointed, Senate-confirmed officials. In spite of clear departmental policies, which were rooted in
        statutory provisions, our investigation disclosed that the interest for HUD to be “more aggressive” in its
        lobbying activities overrode their adherence to their own longstanding policies.


        While our investigation did not result in criminal or civil prosecution, it did discern an institutional
        failure to follow HUD’s existing internal policies. At a certain level, HUD’s actions leave the impression
        of impropriety and ethical lapses. The Department should have more fully scrutinized the decision to




34
                                                     CHAPTER SIX OTHER SIGNIFICANT AUDITS, INVESTIGATIONS, AND EVALUATIONS




        send the email, as well as its content and its list of recipients. This inattention was particularly evident
        when one examines the types of organizations represented on the list of email recipients, which
        included 46 HUD employees. While our investigation determined that including 46 HUD employees
        was inadvertent on the part of the Deputy Secretary, the lack of due diligence by those preparing the
        email may have caused the Deputy Secretary to commit a prohibited personnel practice and to violate
        Federal law prohibiting an official from coercing a Federal employee’s political activities.


        Equally troubling was the fact that the email was sent to individuals at organizations that receive HUD
        funding. Such organizations are generally prohibited from using Federal funds to carry out certain lobbying
        activities. In fact, one of the recipients, a large public housing authority, had recently been found by my
        office to have violated Federal requirements by using Federal funds to carry out lobbying activities.


        Of significant concern to me and one thing that I will not tolerate as Inspector General and a Federal
        law enforcement official was interference with our investigation. Specifically, Mincberg not only
        interrupted and inserted himself into an ongoing witness interview, he threatened to terminate it,
        threatened not to allow the witness to provide documentation as requested by investigators, and
        contacted witnesses prior to our interview of them to, in my opinion, “create the story.” Finally and
        most troubling, was his threat to have my investigators charged merely for doing their duty in an
        attempt, as I see it, to intimidate them into not proceeding further.


        This series of events illustrates what may happen when senior government officials veer from the
        concept of ethical behavior and act in a manner that is ultimately not in the Department’s best
        interest. There were breakdowns in communication and in responsibility, and the conduct of several
        individuals resulted in the Deputy Secretary being misled, embarrassed, and ill served. In particular,
        Mincberg’ s obligation to exercise sound ethical judgment and avoid violating well-established HUD
        policy was mitigated by his eagerness in being “more aggressive” with regard to lobbying.



As of this semiannual reporting period, HUD had not reported any administrative action taken against any
individual involved in this matter.




                                                                                                                      35
SEMIANNUAL REPORT TO CONGRESS




 SEVEN           LEGISL ATION, REGUL ATION,
                 AND OTHER DIRECTIVES


Reviewing and making recommendations on legislation, regulations, and policy issues is a critical part of the Office
of Inspector General’s (OIG) responsibilities under the Inspector General Act. During this 6-month reporting period,
OIG has committed approximately 373 hours to reviewing 84 issuances. The draft directives consisted of 34 notices,
15 mortgagee letters, and 35 other directives. OIG provided comments on 35 of the issuances (42 percent) and
provided no nonconcurrences. A summary of selected reviews for this 6-month period is below.



NOTICES, POLICY ISSUANCES, AND FINAL RULES

SINGLE-FAMILY HOUSING
Underwriting standards - The Federal Housing Administration (FHA) submitted a mortgagee letter for review
regarding clarifying policy guidance for revised manual underwriting requirements published in the Final
Federal Register Notice, FR 5595-N-01, on December 11, 2013. The mortgagee letter explains maximum
qualifying ratios for manually underwritten loans and revises and clarifies the compensating factors that
must be cited in order to exceed FHA’s standard qualifying ratios for manually underwritten loans. It also
explains the new reserve requirements for manually underwritten loans for one- and two-unit properties. OIG
expressed continued concerns that a ratio of 40/50 is too high and no amount of compensating factors should
be allowed for that risk level. Mortgagee letter 2014-2 was issued January 21, 2014, and is effective for case
numbers assigned on or after April 21, 2014.
     Electronic signatures - FHA submitted a mortgagee letter through the clearance process announcing
the acceptance of electronic signatures conducted in accordance with outlined performance standards
on documents requiring signatures included in the case binder for mortgage insurance, servicing and loss
mitigation documents, FHA insurance claim documentation, and HUD’s real estate-owned sales contract and
related addenda unless otherwise prohibited by law. Some of the performance standards outlined include that
(1) a lender’s electronic signature technology must comply with all requirements of the Electronic Signatures
in Global and National Commerce Act; (2) a lender must be able to prove that the signer certified that the
document is true, accurate, and correct at the time signed; (3) an authentication process is in place to confirm
an individual’s identity as a party to the transaction; and (4) a process is in place to associate the identity of an
individual with his or her signature. Lenders must require a separate action by the signer, evidencing intent
to sign, in each location where a signature or initials are to be applied. However, this provision does not apply
to documents signed by lender employees or lender contractors provided the lender obtains the consent of
the individual for the use of his or her electronic signature. OIG expressed concerns that this may lessen the
chance that a review is performed before the lender employee or contractor signs each document. Mortgagee




36
                                                            CHAPTER SEVEN LEGISLATION, REGULATION, AND OTHER DIRECTIVES



Letter 2014-3 was issued on January 30, 2014, and its policies were effective immediately.
    Qualified mortgage definition - OIG reviewed FHA’s final rule on the definition of a qualified mortgage
that is insured, guaranteed, or administered by HUD. The final rule became effective on January 10, 2014,
and applies to mortgages with a case number assignment on or after that date. The Dodd-Frank Wall Street
Reform and Consumer Protection Act required HUD to propose a qualified mortgage definition that is aligned
with the “ability-to-repay” criteria set out in the Truth-in-Lending Act as well as HUD’s historic mission to
promote affordable mortgage financing options for underserved borrowers. HUD’s rule is an extension
of the existing qualified mortgage rule finalized by the Consumer Financial Protection Bureau in 2013. To
meet HUD’s definition, mortgage loans must (1) require periodic payments without risky features, (2) have
terms not to exceed 30 years, (3) limit upfront points and fees to no more than 3 percent with adjustments to
facilitate smaller loans (except for Title I, Title II, Manufactured Housing, Section 184, and Section 184A loans
and others), and (4) be insured or guaranteed by FHA or HUD. The rule establishes two types of qualified
mortgages that have different protective features for consumers and different legal consequences for lenders.
HUD’s qualified mortgage classifies a loan as either a rebuttable presumption or safe harbor qualified
mortgage depending on the relation of the loan’s annual percentage rate to the average prime rate offer, the
rate for the average borrower receiving a conventional mortgage.



COMMUNITY PLANNING AND DEVELOPMENT
Various waivers – OIG reviewed the Notice on Clarifying Guidance, Waivers, and Alternative Requirements
for Grantees in Receipt of Community Development Block Grant Disaster Recovery Funds under the Disaster
Relief Appropriations Act of 2013 on February 26, 2014. After OIG’s review, HUD published a Federal Register
notice on March 27, 2014, announcing additional guidance for Hurricane Sandy grantees. This notice granted
a waiver to the City of New York to allow it to measure the benefit to low- and moderate-income households
in multiunit residential projects by using either the existing Community Development Block Grant (CDBG)
requirements or the unit approach. For projects using CDBG Disaster Recovery (CDBG-DR) funds for
rehabilitation, reconstruction, or new construction, current requirements state that the low- and moderate-
income national objective will not be met unless at least 51 percent of the units are occupied by residents who
are income eligible. To further support mixed-income housing in large-scale developments as seen in New
York City, the unit approach may be more compatible. The unit approach allows the city to meet the low- and
moderate-income national objective on a project when it provides CDBG-DR assistance equal to the cost of
the units occupied by low- and moderate-income households.
    The notice also granted a waiver to the City of Minot, ND, reducing the required overall benefit provided
to low- and moderate-income households from 50 to not less than 23 percent. HUD deemed the waiver
necessary for flood buyout and street repair programs in the flood inundation area with a low- and moderate-
income population of 45.2 percent. In particular, HUD notes that the City has already prioritized the needs
of low- and moderate-income populations with its first allocation; the low- and moderate-income population
in the flood inundation area is close enough to 50 percent that it nearly qualifies under the overall benefit
waiver in the March 5, 2013, notice; and given that the flood inundation area is likely to flood again, the City
has identified getting people out of harm’s way as a top priority and this waiver will allow low- and moderate-
income families to take advantage of Minot’s program for this purpose.
    In addition, the State of New York and the City of Joplin, MO, were granted waivers allowing the restriction
on payments of rental assistance and utilities to be increased from 3 months to 2 years on behalf of homeless
and at-risk households when the payments are part of a homelessness prevention or rapid rehousing program
or activity. The waiver allows the requestors to minimize the time households are homelessness by providing
rehousing and rental assistance.




                                                                                                                   37
SEMIANNUAL REPORT TO CONGRESS



OFFICE OF MULTIFAMILY HOUSING
Limited denial of participation - HUD Notice H 2014-5 was issued in March 2014 to establish internal
requirements and procedures to initiate proceedings against FHA-insured multifamily borrowers who have
failed to meet program requirements. The limited denial of participation process ensures that borrowers that
have caused a claim to be made against the insurance fund are prevented from initiating new business with
FHA for at least a year. A list of the principles associated with the borrowers is publicly available. With this
Notice, HUD intends to increase the use of limited denial of participation actions, thereby reducing the risk of
future claims against the fund.
     Standard templates - In February 2014, HUD issued Notice H 2014-02 and related Mortgagee Letter 2014-05.
These updated standard templates are for the multifamily FHA application submission process. These updates
will allow HUD to better expedite the application review process while reducing its risk during the underwriting
analysis of the application. Missing or inconsistent data in the nonstandardized former underwriter’s narrative
often lacked pertinent facts about the proposed multifamily housing project. These inconsistencies or oversights
caused inefficiencies. In addition, new underwriting requirements were included in the updates.




38
                                                                                        CHAPTER EIGHT AUDIT RESOLUTION




 EIGHT          AUDIT RESOLUTION




In the audit resolution process, Office of Inspector General (OIG) and U.S. Department of Housing and
Urban Development (HUD) management agree upon needed actions and timeframes for resolving audit
recommendations. Through this process, OIG strives to achieve measurable improvements in HUD programs and
operations. The overall responsibility for ensuring that the agreed-upon changes are implemented rests with HUD
managers. This chapter describes significant management decisions with which OIG disagrees. It also contains a
status report on HUD’s implementation of the Federal Financial Management Improvement Act of 1996 (FFMIA).
In addition to this chapter on audit resolution, see appendix 3, table B, “Significant Audit Reports for Which Final
Action Had Not Been Completed Within 12 Months After the Date of the Inspector General’s Report.”



Audit Reports Issued Before Start of Period With No Management
Decision as of March 31, 2014

HUD LACKED ADEQUATE CONTROLS TO ENSURE THE TIMELY COMMITMENT AND
EXPENDITURE OF HOME FUNDS, ISSUE DATE: SEPTEMBER 28, 2009
HUD OIG audited HUD’s HOME Investment Partnerships Program (HOME). The OIG report included
a recommendation that the HUD Office of Community Planning and Development (CPD) establish and
implement controls to ensure that field offices require participating jurisdictions to close out future HOME
activities within a timeframe that will permit reallocation and use of the funds for eligible activities in time to
avoid losing them to recapture by the United States Treasury under provisions of Public Law 101-510.
    Since the report’s issuance, management has issued three proposals on how to address recommendation
1D, with the latest proposal being presented on August 27, 2012. OIG rejected all three management decisions
proposed by CPD to address the recommendation because they did not provide for the establishment and
implementation of all of the controls that are needed to address the recommendation.
    A portion of the recommendations dealt with the first-in, first-out (FIFO) issue, on which OIG submitted
a request to the U.S. Government Accountability Office (GAO) for an opinion. OIG received a response to
that request on July 17, 2013. While both HUD and OIG agreed to wait on the final request from GAO before
responding to the issues noted during the audit for recommendations 3A, 3B, and 3C, no agreement was made in
relation to recommendation 1D, which also addressed FIFO issues. This issue was referred to the Acting Assistant
Secretary on March 28, 2014, and the decision was pending as of March 31, 2014. (Audit Report: 2009-AT-0001)




                                                                                                                   39
SEMIANNUAL REPORT TO CONGRESS




HUD’S PROPOSED HOME REGULATIONS GENERALLY ADDRESSED SYSTEMIC
DEFICIENCIES, BUT FIELD OFFICE MONITORING AND DATA VERIFICATION NEED
IMPROVEMENT, ISSUE DATE: FEBRUARY 12, 2013
As OIG reported to Congress, OIG has longstanding concerns regarding administration of the HOME program,
and additional oversight is necessary to ensure that grantees comply with HOME program requirements.
Congress has also mandated that HUD increase controls over the HOME program and implement OIG’s
recommendations to improve controls.5 To help HUD comply with that mandate, OIG completed this audit
and determined that if properly implemented, HUD’s proposed regulatory changes and controls should
adequately address the systemic deficiencies identified in prior HUD OIG audit reports with the exception of
(1) the program office’s oversight of grantee monitoring and (2) validating the reliability of HOME data. OIG
made its recommendations because clarifying the regulations and imposing new requirements on grantees
to monitor themselves is only the first step in implementing adequate management controls. However, HUD
continues to be nonresponsive to OIG’s findings and recommendations.
       OIG’s objective was to determine whether HUD’s proposed regulation6 changes and controls would
mitigate the systemic deficiencies identified in prior OIG audit reports.7 During OIG’s review, it summarized
the results of 77 OIG-issued audit reports on HUD’s HOME program and identified 10 systemic HOME
deficiency areas. OIG determined that if properly implemented, HUD’s proposed changes to HOME
regulations and controls should mitigate the systemic deficiencies identified in prior HUD OIG audit reports
with the exception of (1) the program office’s oversight of grantee monitoring and (2) validating the reliability
of HOME data.
       CPD program officials’ oversight of field office monitoring and grantee compliance required improvement
because the quality management review process they relied on failed to identify systemic monitoring flaws and
officials did not use onsite monitoring data to assess monitoring efforts. As a result, officials could not ensure
that monitoring was complete and effective and may have missed opportunities to identify systemic issues
requiring corrective action, such as seldom- or never-monitored and longstanding noncompliant grantees.
       Although CPD officials had improved controls over HOME data in the Integrated Disbursement and
Information System (IDIS), they lacked a complete process for validating the data. They focused their efforts
on training, moving the database to a Web-based system, and implementing system controls to improve
grantee compliance and data reliability. However, the HOME data were not fully validated, and the reliability
of the data as a whole was unknown. With hundreds of grantees and thousands of subgrantees, reliable data
are critical in overseeing the program, identifying high-risk grantees to monitor, and responding to public and
congressional requests regarding the program.
       The OIG report included recommendations that the Acting Assistant Secretary for Community Planning
and Development (1) develop and implement procedures to oversee and assess the effectiveness of field
offices’ monitoring efforts and (2) develop and implement a quality control system to validate the accuracy
and reliability of HOME data in IDIS.
       HUD CPD did not accept OIG’s findings or recommendations that CPD develop and implement
procedures to assess the effectiveness and completeness of monitoring efforts (finding 1) and on June 24, 2013,
provided management decisions that stated, “No action will be taken.” HUD CPD provided management
decisions for finding 2 on June 20, 2013, that stated, “No action will be taken,” although HUD did agree to add
a specific, mandatory question to the HOME Monitoring Exhibits for Homeowner Rehabilitation Projects,

5
    The Consolidated and Further Continuing Appropriations Act of 2012 specifically required the Secretary to (1) take actions
     necessary to improve data quality, data management, and grantee oversight and accountability for programs administered by
     CPD and (2) address the problems identified by the Inspector General audit reports since 2006, including ongoing audits.
6
    The final rule was issued July 24, 2013.
7
    The audit scope generally covered the period between January 2006 and January 2012.




40
                                                                                        CHAPTER EIGHT AUDIT RESOLUTION



Homebuyer Projects, and Rental Projects as part of its management decision for recommendation 2B.
    OIG rejected HUD CPD’s proposed management decisions on September 6, 2013, because OIG believes
that its findings are substantiated and that a “No action will be taken” stance is not acceptable. Congress
has tasked OIG and HUD to increase controls over the HOME program. Program officials could not show
that monitoring efforts were effective and complete. As a result, the fraud risk for grantees that were seldom
or never monitored was not known and may not have been mitigated; systemic deficiencies may not have
been tested, identified, and mitigated; findings may not have been resolved in a timely manner; continually
noncompliant grantees may not have been identified; and appropriate corrective action may not have been
taken to preserve the integrity of the program and conserve HUD resources.
    At a minimum, CPD officials’ oversight should provide reasonable assurance that known instances of
noncompliance are addressed and corrected. Finding 1 was based in part on the fact that CPD officials did not
know that the 591 HOME compliance and performance findings reported to Congress had been resolved. OIG
reported finding 2 because HUD uses IDIS to monitor compliance and prior OIG audit reports showed that
IDIS data were not reliable. Further, during OIG’s review, CPD officials did not have auditable and verifiable
procedures to show that HOME IDIS data were verified and reliable.
    Consequently, program officials’ oversight of field office monitoring efforts was insufficient. OIG
attributed this condition to reliance on ineffective quality management reviews and the lack of procedures to
evaluate monitoring results in the Grants Management Program database.
    OIG and HUD CPD continue to disagree over OIG’s findings and recommendations. The issues
were referred first on December 11, 2013, to the Acting Assistant Secretary for Community Planning and
Development, who did not respond, and then on March 28, 2014, to the Acting Deputy Secretary. (Audit
Report: 2013-BO-0001)



FOLLOW-UP OF THE INSPECTIONS AND EVALUATIONS DIVISION ON ITS
INSPECTION OF THE STATE OF LOUISIANA’S ROAD HOME ELEVATION INCENTIVE
PROGRAM HOMEOWNER COMPLIANCE (IED-09-002, MARCH 2010), ISSUE DATE:
MARCH 29, 2013
HUD OIG conducted a follow-up review regarding its recommendations made to HUD pertaining to its
inspection of the State of Louisiana’s Road Home Elevation Incentive program, IED-09-002, issued in March
2010. The objective of the review was to determine whether the State of Louisiana had implemented the four
recommendations in OIG’s March 2010 report.
    OIG agreed to close three of the four recommendations cited in its March 2010 report. For the remaining
recommendation regarding the recovery of $3.8 million awarded to 158 noncompliant homeowners,
documentation showed that the State had recovered nearly $201,000 of the awarded funds. As of August
31, 2012, the State’s documentation showed that a total of 24,042 homeowners either were noncompliant,
including those who had not elevated their homes; were nonresponsive; or did not provide sufficient
supporting documentation. Therefore, the State did not have conclusive evidence that the $698.5 million in
Community Development Block Grant Disaster Recovery (CDBG-DR) program funds had been used to elevate
homes. As a result, this recommendation remains open and has been revised based on OIG’s follow-up review
due to the increased noncompliance among homeowners who received elevation grants.
    OIG recommended that HUD CPD require the State to enforce program remedies for noncompliance as
stated in grant agreements, starting with the recovery of $437.3 million in elevation grant funds from the 15,027
homeowners who did not elevate their homes within 3 years of the grant agreement date and the State had not
collected any of the funds (recommendation 1A); determine whether the 8,462 homeowners who did not respond
to its monitoring survey used the $245 million in elevation grant funds to elevate their homes or recover these
funds from the noncompliant homeowners (recommendation 1B); obtain documentation to validate whether the




                                                                                                                    41
SEMIANNUAL REPORT TO CONGRESS



553 homeowners who received $16 million in grant funds elevated their homes or recover these funds from the
noncompliant homeowners (recommendation 1C); enforce its grant review and recovery procedures to ensure that
homeowners comply with the terms of their elevation grant agreements (recommendation 1D); and reimburse the
uncollectible elevation grant funds from non-Federal funds (recommendation 1E).
     On June 5, 2013, OIG received a letter from the State of Louisiana’s Senate. The letter included Senate
Resolution No. 53, which directed the State Office of Community Development to comply with OIG’s
recommendations.
     On July 26, 2013, OIG obtained HUD’s CPD management decisions for all five recommendations. HUD’s
Deputy Assistant Secretary for Grant Programs agreed with OIG recommendations 1A-D, stating that “CPD will
continue to ensure program remedies are enforced.” Additionally, CPD provided the following recommended
proposed actions:


      a) The State will work with HUD on proposed action plan amendments targeted to individuals who have not
        complied with elevation requirements but who have completed the required rehabilitation of their home.


      b) Within two weeks of the action plan amendment approval/disapproval, the State will launch its
        final compliance notifications, requiring homeowners to demonstrate compliance within 120 days.
        Homeowners that fail to meet the compliance deadline will be turned over to the State’s Attorney
        General’s Office for collections.


      c) The State will implement a comprehensive grant collections policy inclusive of additional remedies
        for homeowners unable to repay their full grant amount within the prescribed timelines. The policy
        offers these homeowners the option to repay the entire amount due, repay with a 10-year promissory
        note, submit an alternative payment request based on income and relevant circumstances, or identify
        a settlement amount depending on the homeowner’s income (the State is in the process of establishing
        details for this approach).


      d) Within one year of the date of this management decision, the State must identify all non­compliant
        households and, excluding those homeowners with Hazard Mitigation Grant Program (HMGP)
        applications, must reimburse its line of credit from non-Federal funds for the amount associated with
        non-compliant households.


Regarding recommendation 1E, CPD disagreed but proposed the following recommended action:


     e) C
         PD will continue to ensure program remedies are enforced. Once the State has exhausted all efforts
       to recapture elevation grant funds from non-compliant actions homeowners and contractors, the State
       will have satisfied its due diligence in executing its recapture and recovery procedures. The State will
       undertake the actions identified in Finding Recommendation 1A to obtain repayment, as applicable,
       from non-compliant actions.


     On the same day (July 26, 2013) OIG received the proposed management decision, CPD’s Deputy Assistant
Secretary for Special Needs Program responded to the State of Louisiana, concurring with the State’s action
plan amendments 58, 59, and 60 for CDBG-DR supplemental funding. Specifically, the State’s amendment 60
allowed homeowners who received a grant under the Road Home Incentive Elevation Program to demonstrate
that they used those funds to either elevate or rehabilitate their home.
     OIG disagrees with all five proposed management decisions because it has concerns with CPD’s approval
of the State’s amendment 60.




42
                                                                                      CHAPTER EIGHT AUDIT RESOLUTION



• OIG takes exception to amendment 60 because the elevation incentive agreement indicated that the funds
  were intended to assist the homeowners only to elevate their homes. If the funds were not used for that
  purpose, the funds must be repaid to the State.
• OIG believes CPD’s changing the scope of work for the expired elevation incentive agreements, entered into
 as early as 2006, to now allow homeowners to rehabilitate their homes overrides the intent of the program
 and is unfair to the homeowners who either elevated their homes or paid back the funds.
• CPD’s approval of amendment 60 leaves those homeowners potentially exposed to home destruction again since
 those homes were not elevated. More importantly, this is more than an issue of homeowners repaying funds.
 These homes remain vulnerable to future storms, and scarce resources were used for an alternative purpose.
• Finally, OIG is concerned with CPD’s completion of the management decision process. On July 26, 2013,
 OIG received HUD’s proposed management decision. The management decision indicated that HUD
 would work with the State on proposed action plan amendments, giving the impression that it was still
 working with the State to reach an agreement on what actions should be taken. However, CPD concurred
 with the amendments on the same day it provided a proposed management decision to OIG. This action
 demonstrates a lack of good faith between the two organizations. Thus, OIG was left with no choice but to
 nonconcur on the proposed management decision.


OIG acknowledges CPD’s and the State’s efforts. However, OIG cannot overlook the expired 3-year compliance
period and that the Road Home Elevation Incentive homeowners had not elevated the homes, were
nonresponsive, or did not provide sufficient documentation. Therefore, the State did not have conclusive
evidence that the $698.5 million in CDBG-DR funds had been used to elevate homes.
    OIG reported in its April 1, 2013, through September 30, 2013, Semiannual Report to Congress that it
disagreed with all five of CPD’s management decisions because of its concerns with CPD’s approval of the
State’s amendment 60. OIG also previously reported that it had referred the issue to CPD’s Acting Assistant
Secretary on September 17, 2013. On March 31, 2014, OIG referred the recommendations to HUD’s Acting
Deputy Secretary because no management decisions had been reached to correct the deficiencies OIG
identified. The Acting Deputy Secretary’s decision was pending as of March 31, 2014. (Audit Memorandum:
2013-IE-0803)



HUD’S OVERSIGHT OF THE WAGE RESTITUTION AND DEPOSIT ACCOUNT NEEDS
IMPROVEMENT, ISSUE DATE: APRIL 16, 2013
HUD OIG audited the Office of Labor Relations deposit account to determine whether (1) controls used
to administer and distribute restitution payments were adequate and (2) the correct workers received the
restitution payments.
    Labor Relations violated the Miscellaneous Receipts Act when it retained liquidated damages, which
should have been transferred to the U.S. Treasury.  It also indefinitely retained in its deposit account funds
categorized as unclaimed funds, unfound depositors, and unfound workers.  As a result, more than $1.3
million in funds was withheld from use by various programs within the Federal Government.
    Labor Relations mismanaged project deposit funds; specifically, it did not conduct a recurring
reconciliation of the deposit account.  It also expended $20,000 to cover the project payments, which was more
than the actual balance for the project deposit.  As a result, its deposit account balance did not reconcile with
the balance maintained by the Office of the Chief Financial Officer and the U.S. Treasury.
    Labor Relations did not (1) pay the Internal Revenue Service (IRS) 2010 taxes withheld from the employee’s
wage restitution in a timely manner and (2) properly address the employer’s share of the taxes.  As a result, it
delayed paying the IRS more than $200,000 for the 2010 employee’s share of the taxes and could owe the IRS an
additional $40,000 for the employer’s share of the taxes.




                                                                                                                   43
SEMIANNUAL REPORT TO CONGRESS



     Labor Relations determined that some workers were deceased or incarcerated, but it paid wage restitution to
individuals other than these workers. As a result, it paid nearly $12,000 to individuals who were not actual workers.
     Among other things, OIG recommended that HUD work with the Office of the Chief Information Officer to
improve the deposit module’s reporting capabilities so that Labor Relations staff is able to report and analyze
the deposit account transactions and taxes or replace the system.
     On July 31, 2013, OIG obtained HUD’s Office of Labor Relations management decisions. HUD’s Director
of the Office of Departmental Operations and Coordination (ODOC) agrees with OIG’s recommendation to
improve the deposit module’s reporting capabilities. However, Labor Relations stated that the Office of the
Chief Information Officer will not provide additional funding to improve the deposit module or replace the
system. Specifically, Labor Relations stated, “The Office of the Chief Information Officer (OCIO) has not provided
development funds to the LR2000 system in seven (7) years. For the remainder of FY [fiscal year] 2013, the
current contract has in fact been de-scoped for maintenance only. However, ODOC has agreed to become part
of a new Department-wide Enforcement system that will cover the work for OLR [Office of Labor Relations], the
Office of Healthy Homes and Lead Hazard Control, the Office of Fair Housing and Equal Opportunity, and the
Office of General Counsel. The new system is to be called HEMS [HUD Enforcement Systems].”
     In response to OIG’s disagreement referral, issued on September 27, 2013, ODOC’s Director stated that
“over the past three years that they have endeavored to enhance the LR2000 automated system’s functionality
and make it compliant with Department’s standards.” She also acknowledged that the referral accurately
reflected the Office of Labor Relations’ progress to date and inability to obtain working capital funds to
develop a new system or modernize the existing system. She further agreed that the matter should be referred
to the Deputy Secretary for a management decision.
     OIG disagreed with ODOC’s management decision because OIG had not been provided documentation
that HEMS will have the capabilities necessary to support all of Labor Relations’ activities and functions. OIG
is specifically concerned that the implementation of the planned departmentwide enforcement system may
not fulfill the needs of Labor Relations as a replacement for LR2000. The five other systems that are being
consolidated are all systems that track, monitor, and support departmental investigations to find efficiencies
and cost savings. While LR2000 allows Labor Relations to track the deposits made, the system also requires the
functionality to generate vouchers for payments to underpaid workers and 941 payments to the IRS, generate
IRS Forms W-2 for the workers who receive restitution payments, and interface with electronic payroll review
systems as well as Office of the Chief Financial Officer systems. The system should also be configured to
allow for reconciliation of the overall deposit account balance as well as reconciliations of individual project
balances. LR2000 is a markedly different system from the other departmental enforcement systems, and OIG
is not sure that consolidating LR2000 into HEMS will provide Labor Relations with the necessary capabilities
for its activities
     On September 27, 2013, OIG referred the recommendation to the Director of the Office of Departmental
Operations and Coordination because OIG could not resolve this recommendation. On November 19, 2013,
OIG referred the recommendation to HUD’s Acting Deputy Secretary because disagreement remains on the
actions necessary to correct the deficiencies OIG identified. The Acting Deputy Secretary’s decision was
pending as of March 31, 2014. (Audit Report: 2013-HA-0001)




44
                                                                                          CHAPTER EIGHT AUDIT RESOLUTION




THE CITY OF WEST PALM BEACH DID NOT ALWAYS PROPERLY ADMINISTER ITS
HOME PROGRAM, ISSUE DATE: SEPTEMBER 30, 2013
HUD OIG audited the City of West Palm Beach’s HOME program to determine whether the City administered
its program in accordance with applicable HUD requirements.
       The City did not always administer its HOME program in accordance with applicable HUD requirements.
Specifically, it did not properly commit HOME funds or accurately report activity information in IDIS. These
conditions occurred because the City did not enforce HUD’s 24-month commitment deadline requirement
and did not have effective procedures to ensure that it reported current and accurate information in IDIS. This
deficiency resulted in nearly $560,000 in HOME funds not being properly committed because activities were
committed after the 24-month deadline, and two activities totaling $1 million were canceled, but the funds
were not made available for other eligible HOME activities.
       In addition, the City did not ensure that it charged adequately supported and eligible expenditures to the
program. These expenditures were related to project delivery and operating costs. This condition occurred because
City staff did not exercise due care in reviewing and supporting the City’s expenditures. As a result, the City charged
the HOME program more than $1.2 million in unsupported costs and nearly $230,000 in ineligible costs.
       Among other things, OIG recommended that HUD require the City to (1) recapture nearly $560,000 in
HOME funds that it did not commit by the 24-month statutory deadline (recommendation 1A), (2) recapture
more than $157,000 in remaining HOME funds for activities not committed by the 24-month statutory
deadline (recommendation 1B), and (3) reprogram more than $28,000 in remaining funds and deobligate
nearly $43,000 for funds not expended by the 5-year deadline (recommendation 2C).
       HUD disagrees with OIG on recommendations 1A, 1B, and a portion of 2C related to the expenditure
deadline. Regarding recommendations 1A and 1B, HUD states that the method used to determine
compliance with the statutory HOME 24-month commitment requirement is detailed at 24 CFR (Code of
Federal Regulations) 92.500(d)(2). Further explanation of this method is found in HUD Notice CPD 07-
06, Commitment, CHDO [community housing development organization] Reservation, and Expenditure
Deadline Requirements for the HOME Program (June 1, 2007). While HUD understands that its method of
determining compliance was recently found by GAO to be noncompliant with the statutory language found
in section 218(g) of Title II of the Cranston-Gonzalez National Affordable Housing Act, as amended, HUD is
making regulatory and systematic changes that will allow HOME participating jurisdictions to fully comply
with the HOME statutory commitment requirement in the future. At the time the participating jurisdiction
committed funds to the activities identified by OIG in finding 1, it was found to be in compliance with the
HOME regulation at 24 CFR 92.500(d)(2). HUD cannot hold HOME participating jurisdictions accountable
for requirements that are not set forth in regulation or guidance, especially when the participating jurisdiction
was determined by HUD to be in compliance with the current regulation and guidance.
       Regarding recommendation 2C, HUD agrees that the City must reprogram more than $28,000 in
remaining funds for completed activity 699. However, HUD does not agree that nearly $43,000 in unexpended
funds should be deobligated based on the rationale provided for recommendations 1A and 1B.
       OIG rejected HUD CPD’s proposed management decisions on March 12, 2014. At this time, HUD has
not provided proposed corrective action on HUD OIG Audit Report 2014-FO-0003, recommendations 1A, 1B,
1C, 15A, 15B, and 15C that address how HUD’s cumulative method for determining compliance and the FIFO
method of accounting for grants violated statutory and generally accepted accounting principles. Any corrective
action provided needs to take into account the FIFO effect on past grants and its impact on the funding of the
grantees. Thus, OIG cannot accept any management decision that does not take into account the corrective
action HUD plans to take to address GAO’s8 and the Office of Management and Budget’s (OMB) decision. These
issues were referred to the General Deputy Assistant Secretary on March 31, 2014. (Audit Report: 2013-AT-1008)

8
     AO issued a legal opinion on HUD HOME program grants – Statutory Commitment Deadline. Opinion number B-322077,
    G
    issued July 17, 2013.



                                                                                                                    45
SEMIANNUAL REPORT TO CONGRESS




Significantly Revised Management Decisions

Section 5(a)(11) of the Inspector General Act, as amended, requires that OIG report information concerning
the reasons for any significantly revised management decisions made during the reporting period. During the
current reporting period, there were significantly revised management decisions on five audits.



BAYTOWN HOUSING AUTHORITY, BAYTOWN, TX, IMPROPERLY ADVANCED,
TRANSFERRED, AND ENCUMBERED ITS PUBLIC HOUSING FUNDS, ISSUE DATE:
DECEMBER 13, 2005
OIG issued an audit report entitled “Baytown Housing Authority, Baytown, TX, Improperly Advanced,
Transferred, and Encumbered Its Public Housing Funds.” For recommendation 1C, the Houston Office of
Public Housing agreed with the recommendation that the Authority should repay its public housing program
$200,000 for a certificate of deposit used to encumber HUD funds and repay its low-rent program nearly
$100,000 for a second certificate of deposit unless the Authority could provide evidence that it purchased
the certificate from non-HUD funds. In September 2011, Public Housing revised the management decision
to having the Authority’s nonprofit transfer land in lieu of cash repayment. OIG concurred with the revised
management decision. In 2012, the Authority began constructing new housing on the land, and in 2013,
it completed construction and placed the housing under an annual contributions contract with HUD. An
appraisal has determined the value of the land and housing to be $475,000, which was $175,000 more than the
recommendation. The $475,000 was entered as property recovered in lieu of cash. OIG concurred with the
revised costs, and the recommendation was closed on February 12, 2014. (Audit Report 2006-FW-1002)



ANCHOR MORTGAGE CORPORATION, CHICAGO, IL, LOAN ORIGINATION
FRAUD – VIOLATIONS OF THE FALSE CLAIMS ACT, ISSUE DATE:
SEPTEMBER 30, 2010
HUD OIG conducted a review of FHA loan origination practices of Anchor Mortgage Corporation. Based
in part on OIG’s results, the U.S. Attorney’s Office of the Northern District of Illinois sued the lender and its
owner under the False Claims Act. In August 2010, the district court concluded that Anchor had provided
false information or violated HUD regulations when submitting 11 loans for FHA insurance. The district court
entered a judgment of nearly $2.8 million in damages and penalties against the lender and more than $226,000
in damages and penalties against its owner. The owner later paid the judgment against him; however, the
owner appealed the judgment against Anchor in the U.S. Court of Appeals for the Seventh Circuit. The appeals
court reconsidered the assessment of damages under the False Claims Act and reduced the judgment against
Anchor to a little more than $1.4 million.
     OIG initially recorded the original judgment against Anchor at nearly $2.8 million, with HUD’s Office
of General Counsel agreement as to the outcome of the case. However, due to the appeals court decision to
significantly reduce the judgment to $1.4 million, OIG and HUD agreed to revise the case outcome through a
revised management decision to reflect the final judgment amount imposed against Anchor. OIG concurred
with HUD’s March 18, 2014, revised management decision. (Audit Memorandum: 2010-CF-1801)




46
                                                                                     CHAPTER EIGHT AUDIT RESOLUTION




THE LAFAYETTE PARISH HOUSING AUTHORITY VIOLATED HUD PROCUREMENT
REQUIREMENTS AND EXECUTED UNREASONABLE AND UNNECESSARY CONTRACTS,
ISSUE DATE: JUNE 22, 2011
HUD OIG issued an audit report relating to the Lafayette Parish Housing Authority’s violation of HUD
procurement requirements. For recommendation 1K, the New Orleans Office of Public Housing agreed with
the recommendation that the Authority should remain under HUD receivership for at least a year or until it
can demonstrate to HUD that its procurement and other practices consistently meet Federal requirements.
After the HUD receivership was lifted and an executive director was hired, HUD agreed to place the Authority
on a zero dollar threshold for at least a year or until it can demonstrate to HUD that its procurement and
other practices consistently meet Federal requirements. In September 2012, HUD placed the Authority under
HUD receivership, with HUD staff assigned as the receiver, and the Authority hired a chief operating officer.
It was the intent that the chief operating officer would benefit from the receiver’s presence and ultimately be
considered as the potential executive director of the Authority when it was returned to local control. However,
resolution had not been reached by September 2012, and HUD requested OIG approval to extend the final
action target date until September 30, 2014. OIG denied this request due to a lack of adequate information to
justify an extension.
    In March of 2013, HUD again requested OIG approval to extend the final action target date until
December 31, 2013. At that time, the next board of commissioners could not be appointed by the mayor of
Lafayette until a court hearing, scheduled for March 27, 2013, was concluded. The purpose for the hearing
was for the court to render a decision on the mayor’s appeal to a contempt of court citation against him by
the deciding judge. The court’s decision was needed to determine whether the mayor would be required to
reappoint the removed board members or to appoint new board members. After the court hearing, HUD
planned to request that the mayor appoint a new board and require the board to participate in a 3-month
training before HUD could make a determination of when the Authority would be released from receivership.
OIG agreed to extend the final action target date to December 31, 2013.
    By December 24, 2013, HUD’s many attempts to get the parish president or mayor to appoint a new
board had failed, thereby making it impossible for HUD to return the Authority to local control and meet the
December 31, 2013, final action target date. Therefore, on December 27, 2013, HUD proposed to change the
management decision to (1) request that HUD’s Assistant Secretary or General Deputy Assistant Secretary
reach out to the parish president to discuss the urgency of making the appointments and give the parish
president 60 days to have the advisory board in place and (2) if the parish president continues to refuse to
appoint the advisory board, notify the parish president that HUD may consider taking alternate actions, such
as withholding HUD funding, including CDBG and HOME funding, or merging the Authority with another
housing authority. HUD also proposed extending the final action target date to December 31, 2014. On
December 30, 2013, OIG concurred with the revised management decision and extended the final action target
date to December 31, 2014. (Audit Report 2011-AO-0001)



THE MANAGEMENT AND BOARD OF COMMISSIONERS OF THE HOUSING
AUTHORITY OF THE CITY OF PORT ARTHUR, TX, FAILED TO EXERCISE THEIR
FIDUCIARY RESPONSIBILITIES, ISSUE DATE: JUNE 12, 2012
OIG issued an audit report entitled “The Management and Board of Commissioners of the Housing Authority
of the City of Port Arthur, TX, Failed To Exercise Their Fiduciary Responsibilities.” For recommendation 4A,
OIG recommended that the Director of the Houston Office of Public Housing recapture more than $469,000
that the Authority drew as replacement reserves from its 2006 and 2007 Capital Fund grants. HUD agreed to




                                                                                                                47
SEMIANNUAL REPORT TO CONGRESS



recapture the funds if the Authority did not meet certain deadline dates for the disposition and replacement of
the Authority’s Carver Terrace project. In March 2014, Public Housing indicated that the Authority had entered
into agreements and closed on the mixed financing for the project. HUD submitted a revised management
decision indicating that the Authority had met the deadline dates and asked OIG to record more than $469,000
as nonrecovered. OIG concurred with this revision on March 27, 2014. (Audit Report 2012-FW-1008)



THE HOUSING AUTHORITY OF THE CITY OF EL PASO, TX, DID NOT FOLLOW
RECOVERY ACT OBLIGATION REQUIREMENTS OR PROCUREMENT POLICIES, ISSUE
DATE: APRIL 12, 2013
OIG issued an audit report relating to the Housing Authority of the City of El Paso, TX, not following
procurement policies. For recommendation 2A, the Fort Worth Office of Public Housing disagreed with the
recommendation that the Authority should support 11 American Recovery and Reinvestment Act (ARRA)
procurements totaling nearly $5.9 million or repay the amounts to HUD, which would return the funds to
the U.S. Treasury. The recommendation was elevated to the Deputy Assistant Secretary for Public Housing
and Investments. In August 2013, the Deputy Assistant Secretary indicated that the Authority would submit
a request for a waiver of the competitive requirements of 24 CFR Part 85 under the public exigency exception
as detailed in Public and Indian Housing Notice 2009-12. If a waiver could not be granted, the funds would
be returned to HUD. In December 2013, the Assistant Secretary for Public and Indian Housing granted the
Authority a waiver of Federal procurement requirements. HUD stated that exemptions were needed because
the Authority did not completely follow ARRA procurement procedures or Public Housing’s ARRA notices and
the Authority did not document its files to suggest that these were noncompetitive procurements. HUD noted
that ARRA’s shortened obligation period led to the errors and that it was convinced of the public exigency
related to the funding with respect to each of the 11 contracts. Thus, HUD determined that there was good
cause to grant 11 exceptions for the Authority’s processing of the contracts. Based on these waivers, HUD
determined that the contract amounts questioned as unsupported in the recommendation were supported.
OIG concurred with the revised management decision on December 23, 2013, that the amounts were
supported. (Audit Report 2013-FW-1004)



Significant Management Decision With Which OIG Disagrees

During the reporting period, there was one report in which OIG disagreed with the significant management
decision.


GENERALLY, HUD’S HURRICANE DISASTER RECOVERY PROGRAM ASSISTED THE
GULF COAST STATES’ RECOVERY; HOWEVER, SOME PROGRAM IMPROVEMENTS ARE
NEEDED, ISSUE DATE:  MARCH 28, 2013
HUD OIG audited HUD’s State CDBG-DR program for hurricanes that hit the Gulf Coast States from August 2005
through September 2008.  The audit objective was to assess the program overall.  Specifically, OIG wanted to (1)
determine what had been accomplished using the funding and the funds remaining to be spent; (2) compare
actual versus projected performance; and (3) identify best practices, issues, and lessons to be learned. 
     The Gulf Coast States had made progress in recovering from the presidentially declared disasters as a
result of several hurricanes.  Although the States had made progress, based on OIG’s prior audits and a review
of the program’s data, there have been some lessons to be learned regarding deadlines, program guidance,
information system technology acquisitions, procurements, and homeowners’ insurance.  If HUD makes
needed changes, it should improve the effectiveness and efficiency of the program.




48
                                                                                      CHAPTER EIGHT AUDIT RESOLUTION



    The audit found that some States did not take sufficient steps to protect the invested Federal funds, which
the States used to rebuild or rehabilitate homes.  OIG recommended that CPD’s Director of the Office of Block
Grant Assistance adopt a best practice to address the issue of homeowners’ insurance for homes assisted with
disaster funds to ensure that Federal funds invested in the homes are protected (recommendation 2H).  CPD
disagreed with the recommendation, preferring to offer training and technical assistance to grantees regarding
different strategies that can be used to improve insurance coverage.  CPD also stated that it would continue to
highlight examples of how grantees can mitigate the risk of damage from future disasters, including requiring
that future grantees elevate properties to higher standards and recommending that grantees identify insurance
requirements as part of their program design for any CDBG-DR-funded rebuilding program.  Although OIG
continues to believe that having CPD establish a best practice concerning homeowners’ insurance would
better protect the Federal funds invested in rebuilt homes, OIG closed the recommendation as agreeing to
disagree. (Audit Report: 2013-FW-0001)



Federal Financial Management Improvement Act of 1996

HUD did not substantially comply with FFMIA during fiscal year 2013.  HUD made limited progress in
bringing its financial management systems into compliance with FFMIA.  For this reason, HUD’s financial
management systems continued to not meet current requirements.  HUD’s systems were not operated in an
integrated fashion and linked electronically to efficiently and effectively provide agencywide financial system
support necessary to carry out the agency’s mission and support the agency’s financial management needs.
    HUD’s financial systems, many of which were developed and implemented before the issue date of
current standards, were not designed to provide the range of financial and performance data currently
required.  HUD has been working to replace its current core financial management system since fiscal year
2003. The previous project, the HUD Integrated Financial Management Improvement Project (HIFMIP), was
based on plans to implement a solution to replace two of the applications currently used for core processing.
In March 2012, work on HIFMIP was stopped. Project sponsorship was transferred from the Office of the Chief
Financial Officer (OCFO) to the Deputy Secretary. The Deputy Secretary and a working group comprised of
OCFO, the Office of the Chief Information Officer, and the Office of the Chief Procurement Officer reassessed
HUD’s options and determined that the planned HIFMIP solution was not a viable option. As a result, the
HIFMIP effort was canceled. HUD spent more than $35 million on the failed HIFMIP project.
    In the fall of 2012, HUD determined that it would reevaluate alternatives for meeting HUD’s original
program objectives. As a result of that decision, the New Core Project was created to move HUD forward to
implement a new core financial system. The New Core Project has the same scope as HIFMIP, to replace, at
a minimum, the functionality of two of the applications currently used for core processing during the initial
phase of the project. On July 30, 2013, HUD signed an interagency agreement with the Bureau of Public Debt
(BPD) to obtain full Federal shared services. Full service leverages BPD’s financial management, procurement,
human resources, and travel applications. BPD will support full transaction processing to operate these
systems. HUD concluded that this option provided the most value to HUD by leveraging modern technologies
in cloud computing and by reducing implementation risks. In September 2013, HUD began the definition
stage of the project to determine what business process changes will be required as a result of the transition.
    FFMIA requires OIG to report in its Semiannual Reports to the Congress instances and reasons when an
agency has not met the intermediate target dates established in its remediation plan required by FFMIA.  At the
end of 2013, HUD reported that 5 of the 39 financial management systems were not in substantial compliance
with FFMIA.  These five systems are (1) Ginnie Mae Financial Accounting System, (2) IDIS, (3) Facilities
Integrated Resources Management System (FIRMS), (4) HUD Procurement System (HPS), and (5) Small Purchase
System (SPS).  OIG reported two additional non-FFMIA-compliant systems (HUD Integrated Acquisition




                                                                                                                49
SEMIANNUAL REPORT TO CONGRESS



Management System (HIAMS) and HUD Central and Accounting Processing System (HUDCAPS)). OIG and
HUD were in disagreement about HUD’s substantial compliance with FFMIA with respect to these systems.
     The FIRMS application does not interface with any other HUD system as required for a property
management system. Currently, HUD uses a manual process to track and account for the acquisition,
depreciation, and disposition of fixed assets. Although steps had been taken and efforts were underway to
address the issue in fiscal year 2013, FIRMS was not fully operational in fiscal year 2013. HUD anticipated
remediating the FIRMS issue by February 2014. Therefore, FIRMS was not compliant with the requirements of
FFMIA for fiscal year 2013.
     HUD acquired a new application, HIAMS, to replace HPS and SPS on September 30, 2010. The HIAMS
application went live on October 1, 2011. The HIAMS implementation used a phased approach; therefore,
HPS and SPS were still operational and used during fiscal year 2012. OIG performed a limited review of
the implementation of HIAMS during fiscal year 2012 and found that obligation balances in HIAMS were
inaccurate and did not match the balances in HUDCAPS. Because HPS and SPS did not contain the same
level of contract data that is required in HIAMS, OCPO developed a data cleanup and transfer process that
used a combination of electronic and manual migration of data from the legacy systems to HIAMS. Due to
the legacy systems’ limitations in capturing subaccount line data, the contracting officials used hardcopy
award documents to manually enter the appropriate subaccount line data into the HIAMS application.
Discrepancies were identified, and HUD initiated a reconciliation process to correct the data within HIAMS.
As a result of the data discrepancies between the HIAMS and HUDCAPS applications, the HIAMS application
was not compliant with the requirements of FFMIA for fiscal year 2012.
     HUD asserted that the data discrepancies between the HIAMS and HUDCAPS applications were resolved
in September 2013. OIG is working to verify this assertion.
     During fiscal year 2013, OIG performed a review of HUDCAPS and determined that the application
was noncompliant with FFMIA requirements. To be FFMIA compliant, a core financial application or an
application performing core financial functions must be compliant with core financial system requirements.
The core financial system requirements state that the agency core financial system must contain automated
processes to perform payment management functions. HUDCAPS does not import or update vendor data in
accordance with requirements and does not meet all accounts payable, invoicing, disbursing, and payment
follow-up requirements related to how payments are processed. For instance, HUDCAPS does not record full
or partial receipt and acceptance of goods and services by document line item; perform matching options
that match invoices to obligations, receiving reports, and acceptance data; and validate invoice period of
performance and invoice delivery and performance dates and is not used to calculate the payment amount,
including discounts, interest, and penalties. Therefore, HUDCAPS does not meet the core financial system
requirements for the payment management function, making it noncompliant with FFMIA. HUD did not
declare the HUDCAPS application to be noncompliant with FFMIA.
     Although HUD certified 34 individual systems as compliant with Federal financial management systems
requirements, HUD did not perform independent reviews of all of its financial management systems in
accordance with OMB Circular A-127 in the last 4 years. Instead, HUD relied upon the results of OMB
Circular A-123 and Federal Information Security Management Act (FISMA) annual internal control reviews
for individual applications. In fiscal year 2013, OIG determined that HUD’s information security program had
significant deficiencies and many areas of the program were not FISMA compliant. Collectively and in the
aggregate, systems deficiencies continued to exist.




50
                                                                                       APPENDIX 1 PEER REVIEW REPORTING




  APPENDIX 1                PEER REVIEW REPORTING

The Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law No. 111-203), section 989C, requires
inspectors general to report the latest peer review results in their semiannual reports to Congress. The purpose in
doing so is to enhance transparency within the government. Both the Office of Audit and Office of Investigation are
required to undergo a peer review of their individual organizations every 3 years. The purpose of the review is to
ensure that the work completed by the respective organizations meets the applicable requirements and standards.
The following is a summary of the status of the latest round of peer reviews for the organization.


OFFICE OF AUDIT

PEER REVIEW CONDUCTED ON HUD OIG
The U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG), received a
grade of pass (the highest rating) on the peer review report issued by U.S. Department of Education Inspector
General on September 28, 2012.  There were no recommendations included in the System Review Report. The
report stated:


    In our opinion, the system of quality control in effect for the year ended March 31, 2012, for the
    audit organization of the HUD OIG has been suitably designed and complied with to provide the
    HUD OIG with reasonable assurance of performing and reporting in conformity with applicable
    professional standards in all material respects. Federal audit organizations can receive a rating of
    pass, pass with deficiencies, or fail. The HUD OIG has received a peer review rating of pass.


PEER REVIEW CONDUCTED BY HUD OIG ON DOD
HUD OIG conducted an external peer review of U.S. Department of Defense (DoD) OIG, Office of Audit,
and issued a final report November 13, 2012. DoD OIG received a peer review rating of pass (with a scope
limitation). There are no outstanding recommendations. A copy of the external quality control review report
can be viewed at www.dodig.mil/pubs/reviews.html.



OFFICE OF INVESTIGATION

PEER REVIEW CONDUCTED BY HUD OIG ON SSA OIG
HUD OIG conducted an external peer review of the U.S. Social Security Administration (SSA) OIG, Office of
Investigation, and issued a final report on August 12, 2013. HUD OIG determined that SSA OIG complied with
applicable quality standards.


PEER REVIEW CONDUCTED ON HUD OIG
The most recent peer review of the Office of Investigation was conducted in 2011 by the U.S. Department of Health
and Human Services OIG. The results of the peer review found HUD OIG compliant (the highest rating) with the
quality of standards established by the inspector general community and the attorney general guidelines.




                                                                                                                      51
SEMIANNUAL REPORT TO CONGRESS




    APPENDIX 2                  AUDIT REPORTS ISSUED



  INTERNAL REPORTS
  AUDIT REPORTS

  CHIEF FINANCIAL OFFICER

                         Information System Control Weaknesses Identified in the Line of Credit Control System,
  2014-DP-0001
                         11/07/2013.

                         Information System Control Weaknesses Identified in the Housing and Urban Development
  2014-DP-0003
                         Central Accounting and Program System, 01/15/2014.

  2014-DP-0004           Information System Control Weaknesses Identified in the Financial Data Mart, 03/13/2014.

                         Additional Details To Supplement Our Report On HUD's Fiscal Years 2013 and 2012 (Restated)
  2014-FO-0003
                         Financial Statements, 12/16/2013. Better use: $902,859,352.

  CHIEF PROCUREMENT OFFICER

                         HUD Awarded an Architectural and Engineering Contract Without Conducting an Adequate
  2014-KC-0001
                         Price Analysis and Paid the Contractor Without Adequate Support, 03/04/2014.

  COMMUNITY PLANNING AND DEVELOPMENT

                         CPD Did Not Monitor Grantees’ CPD-Funded Assets Transferred by Former Redevelopment
  2014-LA-0001
                         Agencies To Minimize HUD’s Risk, 02/28/2014. Better use: $99,291,911.

  2014-LA-0002           CPD Did Not Monitor NSP Grantees’ Payments of Developer Fees to Developers, 03/10/2014.

  GOVERNMENT NATIONAL MORTGAGE ASSOCIATION

                         Government National Mortgage Association Fiscal Years 2013 and 2012 Financial Statements
  2014-FO-0001
                         Audit, 12/06/2013.

  HOUSING

                         Violations Increased the Cost of Housing’s Administration of Its Bond Refund Program,
  2014-AT-0001
                         03/14/2014. Questioned: $2,761,593; unsupported: $139,969; better use: $279,639.

                         Application Control Weaknesses Identified in the Asset Disposition and Management System,
  2014-DP-0002
                         01/14/2014.

                         Federal Housing Administration Fiscal Years 2013 and 2012 Financial Statements Audit,
  2014-FO-0002
                         12/13/2013. Better use: $100,000,000.




       52
                                                                                                           APPENDIX 2 AUDIT REPORTS ISSUED




                             HUD Did Not Provide Effective Oversight of Section 202 Multifamily Project Refinances,
    2014-NY-0001
                             02/19/2014. Better use: $21,097,996.

    PUBLIC AND INDIAN HOUSING

                             HUD’s Procedures Do Not Always Ensure the Proper Use and Timely Reimbursement of Public
    2014-BO-0001
                             Housing Agency Interfund Transaction Balances, 03/21/2014. Questioned: $2,216,321.

                             The Boston Office of Public Housing Did Not Provide Adequate Oversight of Environmental
    2014-FW-0001             Reviews of Three Housing Agencies, Including Reviews Involving Recovery Act Funds,
                             02/07/2014. Questioned: $85,642,077; unsupported: $80,759,094.

    AUDIT-RELATED MEMORANDUMS9

    CHIEF PROCUREMENT OFFICER

    2014-FO-0801             HUD’s Semiannual Purchase Card Violation Report, 03/19/2014.

    PUBLIC AND INDIAN HOUSING

                             HUD's Monitoring and Administration of the Housing Choice Voucher Family Self-Sufficiency
    2014-NY-0801
                             Program, 10/30/2013.




    EXTERNAL REPORTS
    AUDIT REPORTS

    COMMUNITY PLANNING AND DEVELOPMENT

                             The Municipality of Arecibo Did Not Properly Administer Its HOME Program, Arecibo, PR,
    2014-AT-1001
                             12/03/2013. Questioned: $1,057,491; unsupported: $1,057,491; better use: $30,919.

                             The City of Memphis Did Not Have Effective Controls To Administer Its Housing and
    2014-AT-1003             Rehabilitation Program Activities, Memphis, TN, 12/30/2013. Questioned: $401,719;
                             unsupported: $381,855.

                             The State of Mississippi Did Not Ensure That Its Subrecipient and Appraisers Complied With
                             Requirements, and It Did Not Fully Implement Adequate Procedures For Its Disaster
    2014-AT-1004
                             Infrastructure Program, Jackson, MS, 12/30/2013. Questioned: $2,165,915; unsupported:
                             $2,165,915.

                             The City of Flint Lacked Adequate Controls Over Its HOME Investment Partnerships Program,
    2014-CH-1001
                             Flint, MI, 11/15/2013. Questioned: $303,040; unsupported: $107,587; better use: $102,880.




9
    T
     he memorandum format is used to communicate the results of reviews not performed in accordance with generally accepted
    government auditing standards, to close out assignments with no findings and recommendations, to respond to requests for
    information, to report on the results of a survey, or to report the results of civil actions or settlements.




                                                                                                                               53
SEMIANNUAL REPORT TO CONGRESS




                         The City of Detroit Lacked Adequate Controls Over Its Neighborhood Stabilization Program-
  2014-CH-1002           Funded Demolition Activities Under the Housing and Economic Recovery Act of 2008, Detroit,
                         MI, 01/06/2014. Questioned: $298,635; unsupported: $18,083; better use: $2,050,760.

  2014-KC-1002           The City of Joplin Complied With CDBG Disaster Recovery Regulations, Joplin, MO, 01/29/2014.

                         The City of Kansas City Did Not Properly Obligate Its NSP1 Grant Funds and Allowed Its
  2014-KC-1003           Subrecipient to Enter Into Contracts Without the Required Provisions, Kansas City, MO,
                         02/05/2014.

                         The City of Norfolk Generally Failed To Justify Its CDBG Activities, Norfolk, VA, 12/17/2013.
  2014-PH-1001
                         Questioned: $11,548,506; unsupported: $11,548,506.

                         Allegations Against Clare View Seniors Apartments, LP, Had Been Corrected or Did Not Violate
  2014-SE-1001
                         HUD Requirements, Spokane, WA, 02/04/2014.

  HOUSING

                         The Wyoming Community Development Authority Properly Administered HUD's Loss Mitigation
  2014-DE-1001
                         Program, Casper, WY, 01/22/2014.

                         Windridge Apartments Did Not Administer Its Program in Accordance With HUD Rules and
  2014-KC-1001           Regulations and Its Own Policies and Procedures, Wichita, KS, 11/07/2013. Questioned:
                         $239,827; unsupported: $200,362.

                         Marina Village Apartments Was Not Always Administered in Accordance With HUD
  2014-LA-1001
                         Requirements, Sparks, NV, 10/24/2013. Questioned: $45,413; better use: $45,656.

  PUBLIC AND INDIAN HOUSING

                         The Housing Authority of the City of Lumberton Did Not Administer Its Public Housing Program
  2014-AT-1002           in Accordance With Requirements, Lumberton, NC, 12/05/2013. Questioned: $159,361;
                         unsupported: $157,861.

                         The Housing Authority of the City of Bridgeport Did Not Always Ensure That Expenses Charged
  2014-BO-1001           to Its Federal Programs Were Eligible, Reasonable, and Supported, Bridgeport, CT, 01/23/2014.
                         Questioned: $1,686,407; unsupported: $790,555; better use: $45,276.

                         The Paterson Housing Authority Had Weaknesses in Administration of its Housing Choice
  2014-NY-1001           Voucher Program, Paterson, NJ, 01/15/2014. Questioned: $4,148,434; unsupported:
                         $4,060,604; better use: $4,132,900.

                         The Hopewell Redevelopment and Housing Authority Generally Used Housing Choice Voucher
  2014-PH-1002           and Public Housing Program Funds in Accordance With Applicable Requirements, Hopewell, VA,
                         02/04/2014.

                         The Housing Authority of the County of Lackawanna Needs To Improve Its Controls Over Its
  2014-PH-1003           Operations To Comply With HUD Requirements, Dunmore, PA, 02/28/2014. Better use:
                         $370,234.




       54
                                                                                                              APPENDIX 2 AUDIT REPORTS ISSUED




     AUDIT-RELATED MEMORANDUMS10

     COMMUNITY PLANNING AND DEVELOPMENT

                              Vieques Sports City Complex, Office of the Commissioner for Municipal Affairs, Section 108
     2014-AT-1801             Loan Guarantee Program, San Juan, PR, 03/20/2014. Questioned: $10,876,095; unsupported:
                              $10,876,095.

     GENERAL COUNSEL

                              Leo Thomas-Lender Official Settled Violations of FHA Lending Requirements, Raleigh, NC,
     2014-AT-1802
                              03/26/2014. Questioned: $115,000.

                              Final Civil Action: Kenneth Register-Lender Official Settled Violations of FHA Lending
     2014-AT-1803
                              Requirements, Raleigh, NC, 03/26/2014. Questioned: $10,000.

                              Violations of U.S. Department of Housing and Urban Development Real Estate Owned Program
     2014-CF-1801
                              Requirements, Dayton, OH, 01/29/2014. Questioned: $7,500.

                              Real Estate Agent Violated U.S. Department of Housing and Urban Development Real Estate-
     2014-CF-1802
                              Owned Program Requirements, Dayton, OH, 02/24/2014. Questioned: $5,000.

                              Real Estate Broker Violated U.S. Department of Housing and Urban Development Real Estate-
     2014-CF-1803
                              Owned Program Requirements, Dayton, OH, 02/24/2014. Questioned: $500.

                              Section 8 Landlord Settled Violations of the Housing Choice Voucher Program, Orlando, FL,
     2014-CF-1804
                              02/26/2014. Questioned: $10,000.

                              Final Civil Action, James B. Nutter & Co. and Underwriter, Lender Settled Alleged Violations of
     2014-PH-1801
                              Home Equity Conversion Mortgage Program, Washington, DC, 03/27/2014. Better use: $7,500.

                              Final Action, Bank of America, NA, and Underwriter, Lender Settled Alleged Violations of Home
     2014-PH-1802
                              Equity Conversion Mortgage Program, Washington, DC, 03/27/2014.

     PUBLIC AND INDIAN HOUSING

                              The Colfax Housing Authority Did Not Properly Administer Its Programs, Including Its 2009
     2014-FW-1801             American Recovery and Reinvestment Act Grant, Colfax, LA, 11/08/2013. Questioned:
                              $1,034,694; unsupported: $1,031,961.

                              The Management of the Housing Authority of the City of Nixon Did Not Exercise Adequate
     2014-FW-1802             Oversight and Allowed Ineligible and Unsupported Costs, Nixon, TX, 03/31/2014. Questioned:
                              $116,341; unsupported: $109,861.




10
     T
      he memorandum format is used to communicate the results of reviews not performed in accordance with generally accepted
     government auditing standards, to close out assignments with no findings and recommendations, to respond to requests for information,
     to report on the results of a survey, or to report the results of civil actions or settlements.




                                                                                                                                  55
SEMIANNUAL REPORT TO CONGRESS




          APPENDIX 3                          TABLES



TABLE A

Audit Reports issued before the start of period with no management
decision at 03/31/2014



     REPORT NUMBER & TITLE                                 REASON FOR LACK OF MANAGEMENT DECISION   ISSUE DATE

     2009-AT-0001, HUD Lacked Adequate
     Controls to Ensure the Timely Commit-                 See chapter 8, page 39                   09/28/2009
     ment and Expenditure of HOME funds11

     2013-BO-0001, HUD’s Proposed
     HOME Regulations Generally Addressed
     Systemic Deficiencies, but Field Office               See chapter 8, page 40                   02/12/2013
     Monitoring and Data Validation Need
     Improvement

     2013-IE-0803, Follow-up of the In-
     spections and Evaluations Division on
     Its Inspection of the State of Louisiana’s
                                                           See chapter 8, page 41                   03/29/2013
     Road Home Elevation Incentive Program
     Homeowner Compliance (IED-09-002,
     March 2010)

     2013-HA-0001, HUD’s Oversight of the
     Wage Restitution and Deposit Account                  See chapter 8, page 43                   04/16/2013
     Needs Improvement11

      2013-AT-1008, The City of West Palm
     Beach Did Not Always Properly                         See chapter 8, page 45                   09/30/2013
     Administer Its HOME Program         11




11
     Significant audit reports described in previous semiannual reports




           56
                                                                                          APPENDIX 3 TABLES




TABLE B

Significant Audit Reports for which final action had not been completed
within 12 months after the date of the Inspector General’s report


 REPORT                                                         ISSUE        DECISION     FINAL
                REPORT TITLE
 NUMBER                                                         DATE         DATE         ACTION

                Housing Authority of the City of Tupelo,
 2002-AT-1002                                                   07/03/2002   10/31/2002   07/01/2015
                Housing Programs Operations, Tupelo, MS

                Nationwide Survey of HUD's Office of
 2002-KC-0002                                                   07/31/2002   11/22/2002   Note 1
                Housing Section 232 Nursing Home Program

                Corporacion Para el Fomento Economico
                de la Ciudad Capital Did Not Administer Its
 2005-AT-1013                                                   09/15/2005   01/11/2006   Note 1
                Independent Capital Fund in Accordance
                With HUD Requirements, San Juan, PR

                HUD’s Controls over the Reporting, Oversight,
 2006-NY-0001   and Monitoring of the Housing Counseling        06/08/2006   01/08/2007   10/01/2015
                Assistance Program Were Not Adequate

                The Columbus Housing Authority
 2006-KC-1013   Improperly Expended and Encumbered Its          08/30/2006   10/17/2006   11/30/2014
                Public Housing Funds, Columbus, NE

                Assessment of HUD’s Compliance With
 2006-DP-0802   OMB Memorandum M-06-16, “Protection             09/21/2006   11/24/2006   09/30/2014
                of Sensitive Agency Information”

                HUD Can Improve Its Use of Residual Receipts
 2007-KC-0002                                                   01/29/2007   01/29/2007   Note 1
                To Reduce Housing Assistance Payments

                HUD Did Not Recapture Excess Funds
 2007-KC-0003                                                   04/30/2007   08/27/2007   Note 1
                from Assigned Bond-Financed Projects

                The Cathedral Foundation of Jacksonville
 2007-AT-1010   Used More Than $2.65 Million in Project         08/14/2007   12/03/2007   04/10/2017
                Funds for Questioned Costs, Jacksonville, FL

                State of Louisiana, Road Home
                Program, Funded 418 Grants Coded
 2008-AO-1002                                                   01/30/2008   05/12/2008   Note 1
                Ineligible or Lacking an Eligibility
                Determination, Baton Rouge, LA




                                                                                               57
SEMIANNUAL REPORT TO CONGRESS




  REPORT                                                                ISSUE        DECISION     FINAL
                        REPORT TITLE
  NUMBER                                                                DATE         DATE         ACTION

                        HUD Lacked Adequate Controls Over
  2008-AT-0003          the Physical Condition of Section 8             05/14/2008   09/10/2008   10/31/2014
                        Voucher Program Housing Stock

                        Review of Selected FHA Major Applications’
  2008-DP-0004                                                          06/12/2008   10/08/2008   Note 1
                        Information Security Controls

                        The Housing Authority of the City of Calexico
  2008-LA-1012          Did Not Comply With Public Housing              07/01/2008   10/14/2008   12/31/2014
                        Program Rules and Regulations, Calexico, CA

                        Orchard Court Multifamily Project Was
  2009-BO-1002          Not Properly Managed in Accordance              11/06/2008   01/16/2009   02/19/2015
                        with HUD Regulations, Bath, ME

                        State of Louisiana, Road Home Program,
                        Did Not Ensure That Road Home Employees
  2009-AO-1001                                                          05/05/2009   09/16/2009   Note 1
                        Were Eligible To Receive Additional
                        Compensation Grants, Baton Rouge, LA

                        State of Louisiana, Road Home Program,
                        Did Not Ensure That Multiple Disbursements
  2009-AO-1002                                                          05/05/2009   09/16/2009   Note 1
                        to a Single Damaged Residence Address
                        Were Eligible, Baton Rouge, LA

                        The City of East Cleveland Did Not Adequately
  2009-CH-1008          Manage Its HOME Investment Partnerships         05/11/2009   09/08/2009   07/31/2014
                        and CDBG Programs, East Cleveland, OH

                        The City of Rome Did Not Administer
                        Its Economic Development
  2009-NY-1012                                                          05/20/2009   09/23/2009   01/30/2032
                        Activity in Accordance With HUD
                        Requirements, Rome, NY

                        Review of Implementation of Security
  2009-DP-0005                                                          06/11/2009   11/17/2009   12/31/2014
                        Controls Over HUD's Business Partners

                        The Housing Authority of the City of
                        Terre Haute Failed To Follow Federal
  2009-CH-1011          Requirements and Its Employment                 07/31/2009   11/24/2009   04/01/2015
                        Contract Regarding Nonprofit
                        Development Activities, Terre Haute, IN

                        HUD Lacked Adequate Controls To
  2009-AT-0001          Ensure the Timely Commitment and                09/28/2009   03/18/2011   Note 3
                        Expenditure of HOME funds




       58
                                                                                            APPENDIX 3 TABLES




REPORT                                                            ISSUE        DECISION     FINAL
               REPORT TITLE
NUMBER                                                            DATE         DATE         ACTION

               The City of East St. Louis Did Not Properly
               Allocate Salary and Building Expenses or
2010-KC-1003                                                      03/26/2010   07/22/2010   Note 1
               Properly Document Its Process To Secure a
               Consulting Services Contract, East St. Louis, IL

               The Housing Authority of Whitesburg
2010-AT-1003                                                      04/28/2010   08/26/2010   11/29/2035
               Mismanaged Its Operations, Whitesburg, KY

               Sasha Bruce Youthwork, Incorporated,
2010-PH-1008   Did Not Support More Than $1.9 Million             05/11/2010   11/03/2010   Note 1
               in Expenditures, Washington, DC

               The Puerto Rico Department of
               Housing Failed To Properly Manage
2010-AT-1006                                                      06/11/2010   10/08/2010   Note 1
               Its HOME Investment Partnerships
               Program, San Juan, PR

               The DuPage Housing Authority
2010-CH-1008   Inappropriately Administered Its Section 8         06/15/2010   10/08/2010   07/31/2014
               Project-Based Voucher Program, Wheaton, IL

               The Puerto Rico Department of Housing
2010-AT-1011   Did Not Ensure Compliance With HOME                08/25/2010   12/06/2010   Note 1
               Program Objectives, San Juan, PR

               HUD Was Not Tracking Almost 13,000
2010-FW-0003   Defaulted HECM Loans With Maximum Claim            08/25/2010   12/03/2010   Note 1
               Amounts of Potentially More Than $2.5 Billion

               The City of East St. Louis Awarded Block
               Grant Program Funds to Recipients
2010-KC-1008                                                      09/28/2010   01/26/2011   Note 1
               Without Adequately Verifying Their
               Eligibility, East St. Louis, IL

               The City of Flint Lacked Adequate Controls
               Over Its HOME Program Regarding
               Community Housing Development
2011-CH-1001                                                      10/13/2010   02/03/2011   Note 2
               Organizations’ Home-Buyer Projects,
               Subrecipients’ Activities, and Reporting
               Accomplishments in HUD’s System, Flint, MI

               Additional Details to Supplement Our
2011-FO-0003   Report on HUD's Fiscal Years 2010                  11/15/2010   08/08/2011   06/15/2015
               and 2009 Financial Statements




                                                                                                 59
REPORT                                                       ISSUE        DECISION     FINAL
               REPORT TITLE
NUMBER                                                       DATE         DATE         ACTION

               The City of Binghamton Did Not
               Always Administer Its Section 108 Loan
2011-NY-1004                                                 12/21/2010   04/20/2012   Note 2
               Program in Accordance With HUD
               Requirements, Binghamton, NY

               The District of Columbia Did Not Administer
2011-PH-1005   Its HOME Program in Accordance With           12/23/2010   04/22/2011   Note 1
               Federal Requirements, Washington, DC

               The City of Cleveland Lacked Adequate
               Controls Over Its HOME Investment
2011-CH-1003   Partnerships Program and American             12/27/2010   04/26/2011   04/01/2014
               Dream Downpayment Initiative-Funded
               Afford-A-Home Program, Cleveland, OH

               The State of Indiana’s Administrator
               Lacked Adequate Controls Over the
               State’s HOME Investment Partnerships
2011-CH-1004                                                 01/31/2011   05/25/2011   Note 2
               Program and American Dream
               Downpayment Initiative-Funded First
               Home/PLUS Program, Indianapolis, IN

               The City of East St. Louis Did Not
               Properly Manage Housing Rehabilitation
2011-KC-1001                                                 02/09/2011   06/09/2011   Note 1
               Contracts Funded by the CDBG
               Program, East St. Louis, IL

               The DuPage Housing Authority
               Inappropriately Administered Its
2011-CH-1006                                                 03/23/2011   07/28/2011   07/31/2014
               Section 8 Housing Choice Voucher
               Program, Wheaton, IL

               The Missouri Housing Development
               Commission Did Not Always Disburse
2011-KC-1003   Its Tax Credit Assistance Program             04/01/2011   07/29/2011   Note 1
               Funds in Accordance With Recovery
               Act Requirements, Kansas City, MO

               The East Orange Revitalization and
               Development Corporation Did Not Always
2011-NY-1009                                                 04/07/2011   08/03/2011   07/01/2015
               Comply With HOME Program Requirements
               and Federal Regulations, East Orange, NJ

               The Municipality of Mayaguez Did
2011-AT-1006   Not Ensure Compliance With HOME               04/08/2011   08/05/2011   Note 1
               Program Objectives, Mayaguez, PR




   60
                                                                                           APPENDIX 3 TABLES




REPORT                                                           ISSUE        DECISION     FINAL
               REPORT TITLE
NUMBER                                                           DATE         DATE         ACTION

               The City of Buffalo Did Not Always
2011-NY-1010   Administer Its CDBG Program in Accordance         04/15/2011   01/25/2012   Note 2
               With HUD Requirements, Buffalo, NY

               The State of Mississippi Generally Ensured
2011-AO-1005   That Disbursements to Program Participants        04/18/2011   08/16/2011   Note 1
               Were Eligible and Supported, Jackson, MS

               The Office of Healthcare Programs Could
2011-FW-0002   Increase Its Controls To More Effectively         04/26/2011   08/17/2011   06/30/2015
               Monitor the Section 232 Program

               The State of Michigan Lacked Adequate
               Controls Over Its NSP Regarding Awards,
2011-CH-1008   Obligations, Subgrantees’ Administrative          06/03/2011   11/30/2011   Note 2
               Expenses and Procurement, and Reporting
               Accomplishments, Lansing, MI

               The Lafayette Parish Housing
               Authority Violated HUD Procurement
2011-AO-0001                                                     06/22/2011   10/13/2011   12/13/2014
               Requirements and Executed Unreasonable
               and Unnecessary Contracts

               The City of Dunkirk Used CDBG Recovery Act
2011-NY-1802                                                     07/14/2011   11/10/2011   Note 1
               Funding for an Ineligible Activity, Dunkirk, NY

               The City of Compton Did Not Administer
2011-LA-1016   Its HOME Program in Compliance With               08/18/2011   12/15/2011   04/01/2014
               HOME Requirements, Compton, CA

               The City of Buffalo Did Not Always
               Disburse Homelessness Prevention and
2011-NY-1016                                                     09/22/2011   01/25/2012   Note 1
               Rapid Re-Housing Program Funds in
               Accordance With Regulations, Buffalo, NY

               The Municipality of San Juan Did Not
2011-AT-1018   Properly Manage Its HOME Investment               09/28/2011   01/12/2012   12/31/2014
               Partnerships Program, San Juan, PR

               The City of Cleveland Lacked Adequate
               Controls Over Its HOME Investment
2011-CH-1014   Partnerships Program-Funded                       09/29/2011   01/26/2012   Note 2
               Housing Trust Fund Program Home-
               Buyer Activities, Cleveland, OH




                                                                                                61
SEMIANNUAL REPORT TO CONGRESS




  REPORT                                                            ISSUE        DECISION     FINAL
                        REPORT TITLE
  NUMBER                                                            DATE         DATE         ACTION

                        The Springfield Metropolitan Housing
                        Authority Did Not Administer Its Grant
  2011-CH-1015                                                      09/30/2011   01/24/2012   05/01/2015
                        in Accordance With Recovery Act and
                        HUD Requirements, Springfield, OH

                        The City of New York Charged Questionable
  2012-NY-1002                                                      10/18/2011   02/16/2012   Note 1
                        Expenditures to Its HPRP, New York, NY

                        The City of Syracuse Did Not Always
  2012-NY-1003          Administer Its CDBG Program in Accordance   10/25/2011   02/22/2012   Note 1
                        With HUD Requirements, Syracuse, NY

                        HUD Needed to Improve Its Use of Its
  2012-PH-0001          Integrated Disbursement and Information     10/31/2011   02/28/2012   Note 1
                        System To Oversee Its CDBG Program

                        Additional Details To Supplement Our
  2012-FO-0003          Report on HUD's Fiscal Years 2011           11/15/2011   05/10/2012   04/01/2014
                        and 2010 Financial Statements

                        HUD Did Not Adequately Support the
  2012-LA-0001          Reasonableness of the Fee-for-Service       11/16/2011   03/27/2012   04/15/2015
                        Amounts or Monitor the Amounts Charged

                        The Shelby County Housing
  2012-AT-1007          Authority Mismanaged Its HUD-               01/26/2012   05/25/2012   Note 2
                        Funded Programs, Memphis, TN

                        MetLife Bank’s Scottsdale, AZ,
                        Branch Office Did Not Follow FHA-
  2012-LA-1004                                                      01/26/2012   05/18/2012   Note 2
                        Insured Loan Underwriting and
                        Quality Control Requirements

                        Information System Deficiencies
  2012-FO-0004          Noted During FHA's Fiscal Year              01/27/2012   05/21/2012   Note 2
                        2011 Financial Statement Audit

                        HUD Controls Did Not Always Ensure
                        That Home Equity Conversion Mortgage
  2012-PH-0004                                                      02/09/2012   06/08/2012   Note 2
                        Loan Borrowers Complied With
                        Program Residency Requirements

                        Audit Report on the Fiscal Year 2011
  2012-DP-0001          Review of Information Systems Controls in   02/14/2012   07/02/2012   Note 2
                        Support of the Financial Statements Audit




       62
                                                                                        APPENDIX 3 TABLES




REPORT                                                        ISSUE        DECISION     FINAL
               REPORT TITLE
NUMBER                                                        DATE         DATE         ACTION

               The State of Indiana’s Administrator
               Lacked Adequate Controls Over the
2012-CH-1004   State’s HOME Investment Partnerships           02/24/2012   06/22/2012   Note 2
               Program Regarding CHDOs’ Activities
               and Income, Indianapolis, IN

               The East St. Louis Housing Authority Did Not
2012-KC-1002   Properly Manage or Report on Recovery          03/02/2012   06/29/2012   04/30/2014
               Act Capital Funds, East St. Louis, IL

               The State of Texas Did Not Follow
               Requirements for Its Infrastructure and
2012-FW-1005                                                  03/07/2012   07/05/2012   Note 2
               Revitalization Contracts Funded With CDBG
               Disaster Recovery Program Funds, Austin, TX

               The City of Los Angeles Did Not Expend
               Brownfields Economic Development Initiative
2012-LA-1005   and Section 108 Funds for the Goodyear         03/13/2012   09/19/2012   03/13/2015
               Industrial Tract Project in Accordance With
               HUD Requirements, Los Angeles, CA

               Mountain CAP of WV, Inc., Did Not
               Administer Its HPRP in Accordance
2012-PH-1008                                                  03/15/2012   07/12/2012   Note 2
               With Applicable Recovery Act and HUD
               Requirements, Buckhannon, WV

               The State of Michigan Lacked Adequate
2012-CH-1007   Controls Over Its Use of NSP Funds Under       03/30/2012   07/26/2012   Note 2
               the HERA for a Project, Lansing, MI

               Amar Plaza Was Not Administered
2012-LA-1006   in Accordance With HUD Rules and               05/21/2012   09/17/2012   09/19/2014
               Regulations, La Puente, CA

               The Municipality of Bayamón Did Not
               Always Ensure Compliance With HOME
2012-AT-1009                                                  05/23/2012   09/18/2012   Note 2
               Investment Partnerships Program
               Requirements, Bayamon, PR

               Los Angeles Neighborhood Housing
2012-LA-1007   Services Did Not Always Properly Administer    06/05/2012   09/21/2012   09/23/2014
               Its NSP2 Grant, Los Angeles, CA




                                                                                             63
SEMIANNUAL REPORT TO CONGRESS




  REPORT                                                                 ISSUE        DECISION     FINAL
                        REPORT TITLE
  NUMBER                                                                 DATE         DATE         ACTION

                        The City of Phoenix Did Not Always
                        Comply With Program Requirements
  2012-LA-1008                                                           06/15/2012   10/15/2012   Note 2
                        When Administering Its NSP1 and
                        NSP2 Grants, Phoenix, AZ

                        The Jefferson Parish Housing Authority
  2012-AO-1002                                                           07/30/2012   12/31/2012   06/30/2014
                        Violated Federal Regulations, Marrero, LA

                        The Hammond Housing Authority Did
                        Not Administer Its Recovery Act Grants in
  2012-CH-1009                                                           08/03/2012   11/30/2012   02/01/2015
                        Accordance With Recovery Act, HUD’s, and
                        Its Own Requirements, Hammond, IN

                        Prince George’s County Generally Did Not
  2012-PH-1011          Administer Its HOME Program in Accordance        08/03/2012   11/30/2012   Note 2
                        With Federal Requirements, Largo, MD

                        The City of Elizabeth Did Not Always
  2012-NY-1011          Administer Its CDBG Program in Accordance        08/15/2012   12/07/2012   Note 2
                        With Regulations, Elizabeth, NJ

                        HUD Did Not Effectively Oversee
  2012-KC-0003          and Manage the Receivership of the               09/05/2012   01/15/2013   12/31/2014
                        East St. Louis Housing Authority

                        Little Haiti Did Not Fully Comply With Federal
  2012-AT-1015                                                           09/06/2012   01/03/2013   Note 2
                        Rules When Administering NSP2, Miami, FL

                        The State of Louisiana Generally Complied
  2012-FW-1014                                                           09/07/2012   02/08/2013   Note 2
                        With Recovery Act HPRP, Baton Rouge, LA

                        Innotion Enterprises, Inc., Did Not
  2012-LA-1010          Always Comply With Its REO Contract              09/12/2012   01/10/2013   Note 2
                        Requirements, Las Vegas, NV

                        FHA Paid Claims for Approximately
  2012-KC-0004          11,693 Preforeclosure Sales that Did             09/18/2012   01/14/2013   Note 2
                        Not Meet FHA Requirements

                        HUD Did Not Always Enforce REO
  2012-LA-0003                                                           09/18/2012   01/09/2013   Note 2
                        M&M III Program Requirements

                        HUD Did Not Ensure Public Housing
  2012-LA-0004          Agencies’ Use of Property Insurance              09/21/2012   12/19/2012   Note 2
                        Recoveries Met Program Requirements




       64
                                                                                    APPENDIX 3 TABLES




REPORT                                                    ISSUE        DECISION     FINAL
               REPORT TITLE
NUMBER                                                    DATE         DATE         ACTION

               Shea Mortgage, Inc., Allowed the
2012-LA-1801   Recording of Prohibited Restrictive        09/26/2012   03/01/2013   10/09/2014
               Covenants, Aliso Viejo, CA

               The Stark Metropolitan Housing Authority
               Did Not Always Administer Its Grant in
2012-CH-1011                                              09/27/2012   01/15/2013   12/31/2018
               Accordance With Recovery Act, HUD’s,
               and Its Own Requirements, Canton, OH

               The Saginaw Housing Commission
               Did Not Always Administer Its Section
2012-CH-1012   8 Housing Choice Voucher Program           09/27/2012   01/07/2013   01/01/2023
               in Accordance With HUD’s and Its
               Own Requirements, Saginaw, MI

               The Flint Housing Commission Did
               Not Always Administer Its Grants in
2012-CH-1013                                              09/27/2012   01/24/2013   10/31/2014
               Accordance With Recovery Act, HUD’s,
               and Its Own Requirements, Flint, MI

               HUD’s Oversight of Recovery Act-
2012-FO-0006                                              09/27/2012   03/05/2013   Note 2
               Funded Housing Programs

               The City of St. Louis Did Not
2012-KC-1006   Effectively Manage Its Recovery            09/27/2012   01/25/2013   Note 2
               Act Funding, St. Louis, MO

               HUD's Office of Community Planning
               and Development Needs To Improve Its
2012-CH-0801                                              09/28/2012   02/13/2013   Note 2
               Tracking of HOME Investment Partnerships
               Program Technical Assistance Activities

               Mortgage Now Inc. Did Not Always Comply
2012-CH-1014   With HUD’s Underwriting and Quality        09/28/2012   01/25/2013   Note 2
               Control Requirements, Shrewsbury, NJ

               A Summary of the Foreclosure and Claims
               Process Reviews for Five Mortgage
2012-CH-1803                                              09/28/2012   01/30/2013   04/30/2014
               Servicers That Engaged in Improper
               Foreclosure Practices, Washington, DC

               Review of Controls Over
2012-DP-0005                                              09/28/2012   12/18/2012   11/08/2014
               HUD’s Mobile Devices




                                                                                         65
SEMIANNUAL REPORT TO CONGRESS




  REPORT                                                            ISSUE        DECISION     FINAL
                        REPORT TITLE
  NUMBER                                                            DATE         DATE         ACTION

                        Village of Spring Valley, Hotline
                        Complaint, Federal Housing Finance
  2012-NY-1802                                                      09/28/2012   01/28/2013   Note 2
                        Agency Complaint Number Z-12-
                        0445-1, Village of Spring Valley, NY

                        Allen Mortgage, LLC, Did Not Comply
                        With HUD Requirements for Underwriting
  2012-CH-1015          FHA Loans and Fully Implement Its Quality   09/30/2012   02/04/2013   Note 2
                        Control Program in Accordance With
                        HUD's Requirement, Centennial Park, AZ

                        Luzerne County Did Not Properly
  2013-PH-1001          Evaluate, Underwrite, and Monitor a         10/31/2012   01/31/2013   Note 2
                        High-Risk Loan, Wilkes-Barre, PA

                        The City of Baltimore Did Not Administer
                        Its Homelessness Prevention and Rapid
  2013-PH-1002                                                      11/09/2012   02/08/2013   05/05/2014
                        Re-Housing Program Grant According to
                        Recovery Act Requirements, Baltimore, MD

                        Additional Details To Supplement Our
  2013-FO-0003          Report on HUD’s Fiscal Years 2012           11/15/2012   05/15/2013   12/31/2014
                        and 2011 Financial Statements

                        The Municipality of Ponce Did Not
                        Always Ensure Compliance With
  2013-AT-1001                                                      11/30/2012   03/29/2013   Note 2
                        HOME Investment Partnerships
                        Program Requirements, Ponce, PR

                        The City of Albany CDBG Recovery
  2013-NY-1001                                                      12/06/2012   04/03/2013   04/03/2014
                        Act Program, Albany, NY

                        HUD Policies Did Not Always Ensure
  2013-PH-0002          That Borrowers Complied With                12/20/2012   04/19/2013   04/16/2014
                        Program Residency Requirements

                        The Idaho Housing and Finance
                        Association Did Not Always Comply
  2013-SE-1001          With HOME Investment Partnerships           12/21/2012   12/21/2012   Note 2
                        Program Match and Compliance
                        Monitoring Requirements, Boise, ID

                        HUD Did Not Always Provide
  2013-CH-0001          Adequate Oversight of Its Assisted          01/04/2013   05/03/2013   Note 2
                        Living Conversion Program




       66
                                                                                        APPENDIX 3 TABLES




REPORT                                                        ISSUE        DECISION     FINAL
                REPORT TITLE
NUMBER                                                        DATE         DATE         ACTION

                Information System Deficiencies Noted
2013-FO-0004    During Federal Housing Administration’s       01/15/2013   08/22/2013   Note 2
                Fiscal Year 2012 Financial Statement Audit

                Standard Pacific Mortgage, Inc.,
2013-LA-1801    Allowed the Recording of Prohibited           02/05/2013   06/04/2013   06/05/2014
                Restrictive Covenants, Irvine, CA

                The City of Paterson Had Weaknesses in the
2013-NY-1004    Administration of Its Housing Opportunities   02/25/2013   04/15/2013   04/08/2014
                for Persons with AIDS Program, Paterson, NJ

                Technical Security Control Weaknesses
2013-DP-0004                                                  02/28/2013   06/26/2013   Note 2
                in Selected Ginnie Mae Applications

                The Cherokee Nation Generally Administered
2013-FW-1001    Its Recovery Act Funds According to           03/12/2013   06/28/2013   05/31/2014
                Requirements, Tahlequah, OK

                Bay Vista Methodist Heights Violated Its
2013-LA-1003    Agreement With HUD When Administering         03/14/2013   05/15/2013   05/14/2014
                Its Trust Funds, San Diego, CA

                The Municipality of Arecibo Did Not
2013-AT-1003    Always Ensure Compliance With CDBG            03/22/2013   06/14/2013   05/31/2014
                Program Requirements, Arecibo, PR


Significant Audit Reports issued within the past 12 months that were described in previous
semiannual reports for which final action had not been completed as of March 31, 2014

REPORT                                                        ISSUE        DECISION     FINAL
                REPORT TITLE
NUMBER                                                        DATE         DATE         ACTION

                The Housing Authority of the City
                of El Paso Did Not Follow Recovery
2013-FW-1004                                                  04/12/2013   08/27/2013   04/30/2014
                Act Obligation Requirements or
                Procurement Policies, El Paso, TX

                Pulte Mortgage LLC, Allowed the
2013-LA-1802    Recording of Prohibited Restrictive           04/18/2013   01/10/2014   07/29/2014
                Covenants, Englewood, CO

                CTX Mortgage Company LLC
2013-LA-1803    Allowed the Recording of Prohibited           04/18/2013   01/10/2014   07/29/2014
                Restrictive Covenants, Dallas, TX




                                                                                             67
SEMIANNUAL REPORT TO CONGRESS




  REPORT                                                              ISSUE        DECISION     FINAL
                        REPORT TITLE
  NUMBER                                                              DATE         DATE         ACTION

                        The City of San Bernardino Did Not
                        Administer Its CDBG and CDBG-Recovery
  2013-LA-1004                                                        04/23/2013   09/06/2013   09/09/2014
                        Act Programs in Accordance With HUD
                        Rules and Regulations, San Bernardino, CA

                        Review of the Philadelphia Housing
                        Authority's Compliance with Federal
  2013-PH-1803                                                        04/26/2013   11/15/2013   08/26/2014
                        Lobbying Disclosure Requirements
                        and Restrictions, Philadelphia, PA

                        Nassau County Did Not Administer
                        It's HOME Investment Partnerships
  2013-NY-1006                                                        05/13/2013   09/06/2013   07/01/2014
                        Program in Accordance With HUD
                        Requirements, Nassau County, NY

                        The City of Santa Ana Did Not Administer
  2013-LA-1006          NSP2 Funds in Accordance With HUD             06/17/2013   09/30/2013   06/16/2014
                        Rules and Requirements, Santa Ana, CA

                        The Management and Board of
                        Commissioners of the Harris County
  2013-FW-1006                                                        06/19/2013   02/11/2014   11/30/2014
                        Housing Authority Mismanaged
                        the Authority, Houston, TX

                        Authority Officials Generally Administered
                        Recovery Act Funds in Accordance
  2013-NY-1007          With Requirements but Budgetary               06/21/2013   08/27/2013   08/15/2014
                        and Procurement Controls Had
                        Weaknesses, New Brunswick, NJ

                        HUD Did Not Enforce the Reporting
                        Requirements of Section 3 of the
  2013-KC-0002                                                        06/26/2013   10/24/2013   07/31/2015
                        Housing and Urban Development Act of
                        1968 for Public Housing Authorities

                        The County of Santa Barbara Did Not
  2013-LA-1007          Comply With HOME Investment Partnerships      07/09/2013   11/04/2013   10/24/2014
                        Program Requirements, Santa Barbara, CA

                        The Charleston-Kanawha Housing Authority
                        Needs To Improve Its Housing Quality
  2013-PH-1005          Standards Inspections and Apply Correct       07/17/2013   11/14/2013   04/15/2014
                        Payment Standards When Calculating
                        Housing Assistance Payments, Charleston, WV




       68
                                                                                       APPENDIX 3 TABLES




REPORT                                                       ISSUE        DECISION     FINAL
               REPORT TITLE
NUMBER                                                       DATE         DATE         ACTION

               HUD Can Improve Public Housing Agencies
               Use of Housing Choice Vouchers by
2013-NY-0002                                                 07/18/2013   11/15/2013   09/27/2014
               Consistently Implementing All Utilization
               Protocols and Improving Controls

               HUD Officials Did Not Always Monitor
2013-NY-0003   Grantee Compliance With the CDBG              07/19/2013   11/26/2013   10/03/2014
               Timeliness Spending Requirement

               The Puerto Rico Housing Finance
2013-AT-1006   Authority Did Not Always Comply With          07/23/2013   11/20/2013   11/15/2014
               HOME Requirements, San Juan, PR

               The City of Worcester Did Not Properly
2013-BO-1002                                                 07/29/2013   12/19/2013   12/04/2014
               Administer Its CDBG Program, Worcester, MA

               Essex County's HOME Investment
               Partnerships Program Was Not Always
2013-NY-1009   Administered in Compliance With               08/09/2013   11/05/2013   07/09/2014
               Program Requirements and Federal
               Regulations, Essex County, NJ

               The City of Eagle Pass Housing
               Authority Generally Followed Recovery
2013-FW-1007                                                 08/14/2013   11/13/2013   05/14/2014
               Act Public Housing Capital Fund
               Requirements, Eagle Pass, TX

               The Lending Company, Inc., Did Not Always
2013-LA-1008   Comply With FHA Underwriting and Quality      08/20/2013   12/24/2013   09/19/2014
               Control Program Requirements, Phoenix, AZ

               Economic Development Programs
2013-AT-0003   Lacked Adequate Controls To                   09/03/2013   01/28/2014   12/31/2014
               Ensure Program Effectiveness

               The Housing Authority of the City of Lowell
               Did Not Always Operate Its Public Housing
2013-BO-1003   and Recovery Act Capital Fund Programs        09/04/2013   01/08/2014   07/31/2014
               in Compliance With HUD Regulations
               and Its Own Policies, Lowell, MA

               FHA Paid Claims for Approximately 4,457
2013-LA-0002   Preforeclosure Sales That Did Not Meet        09/05/2013   03/31/2014   09/04/2014
               Minimum Net Sales Proceeds Requirements




                                                                                            69
SEMIANNUAL REPORT TO CONGRESS




  REPORT                                                                  ISSUE        DECISION     FINAL
                        REPORT TITLE
  NUMBER                                                                  DATE         DATE         ACTION

                        Weaknesses Identified in HUD’s Fiscal
  2013-DP-0006                                                            09/12/2013   01/13/2014   06/30/2014
                        Year 2012 Security Program

                        The City of Hawthorne Inappropriately
  2013-LA-1009          Used Nearly $1.6 Million in HOME Funds            09/13/2013   01/06/2014   12/23/2014
                        for Section 8 Tenants, Hawthorne, CA

                        The State of Michigan Lacked Adequate
                        Controls Over Its NSP Under the
  2013-CH-1006                                                            09/15/2013   01/13/2014   01/06/2015
                        American Recovery and Reinvestment
                        Act of 2009, Lansing, MI

                        Community Advocates Did Not Properly
  2013-CH-1008          Administer Its Program and Recovery               09/17/2013   01/15/2014   03/31/2015
                        Act Grant Funds, Milwaukee, WI

                        HUD Paid Claims That Lacked Contact or
  2013-KC-0004                                                            09/18/2013   01/07/2014   09/17/2014
                        Collection Activities With Coborrowers

                        The City of Hawthorne Did Not Administer
                        Its CDBG Program Cost Allocations
  2013-LA-1010                                                            09/20/2013   01/06/2014   12/23/2014
                        in Accordance With HUD Rules and
                        Requirements, Hawthorne, CA

                        HUD Had Made Progress in Reducing
  2013-KC-0005          Oversubsidization in the Housing Choice Voucher   09/23/2013   12/12/2013   10/30/2014
                        Program, but the Problem Continued To Exist

                        Reviews of Six FHA Lenders Demonstrated
  2013-LA-0803          That HUD Needs To Strengthen Its Oversight        09/23/2013   01/14/2014   09/23/2014
                        of Prohibited Restrictive Covenants

                        The City of New Orleans Did Not Have
                        Adequate Financial and Programmatic
  2013-FW-1008          Controls To Ensure That It Expended               09/24/2013   01/06/2014   05/09/2014
                        and Reported Funds in Accordance With
                        Program Requirements, New Orleans, LA

                        The Malakoff Housing Authority Did Not Have
                        Sufficient Controls Over Its Public Housing
  2013-FW-1805                                                            09/26/2013   12/19/2013   05/02/2014
                        Programs, Including Its Recovery Act Funds,
                        Malakoff, TX

                        The City of Auburn Did Not Always
  2013-NY-1010          Administer Its CDBG Program in Accordance         09/26/2013   01/24/2014   06/30/2015
                        With HUD Requirements, Auburn, NY




       70
                                                                                                                    APPENDIX 3 TABLES




  REPORT                                                                     ISSUE             DECISION         FINAL
                        REPORT TITLE
  NUMBER                                                                     DATE              DATE             ACTION

                        The Flint Housing Commission Did
                        Not Always Administer Its Grant in
  2013-CH-1009                                                               09/27/2013        01/14/2014       01/23/2015
                        Accordance With Recovery Act, HUD’s,
                        and Its Own Requirements, Flint, MI

                        Evaluation of HUD’s Property
  2013-IE-0804                                                               09/27/2013        03/26/2014       09/30/2015
                        Inventory System

                        HUD’s Oversight of Its Moving to Work
  2013-PH-0004                                                               09/27/2013        01/24/2014       01/31/2015
                        Demonstration Program Needs Improvement

                        The City of West Palm Beach Did Not
  2013-AT-1008          Always Properly Administer Its HOME                  09/30/2013        01/17/2014       Note 3
                        Program, West Palm Beach, FL

                        The City of Toledo Did Not Always Administer
  2013-CH-1010          Its CDBG-R Program in Accordance With                09/30/2013        01/15/2014       01/15/2015
                        HUD’s and Its Own Requirements, Toledo, OH

                        The Michigan State Housing Development
                        Authority Did Not Follow HUD’s
  2013-CH-1011                                                               09/30/2013        01/15/2014       07/31/2029
                        Requirements Regarding the Administration
                        of Its Program, Lansing, MI

                        The Hamtramck Housing Commission Did
                        Not Administer Its Grant in Accordance
  2013-CH-1012                                                               09/30/2013        01/21/2014       01/23/2015
                        With Recovery Act, HUD’s, and Its Own
                        Requirements, Hamtramck, MI

                        The Jefferson County Housing Authority
  2013-DE-1005          Did Not Properly Use Its Disposition                 09/30/2013        01/24/2014       02/28/2020
                        Sales Proceeds, Wheat Ridge, CO

                        Information System Control Weaknesses
  2013-DP-0007                                                               09/30/2013        01/29/2014       08/29/2014
                        Identified in the Hyperion Application System



AUDITS EXCLUDED:
81 audits under repayment plans
32 audits under debt claims collection processing, formal judicial review, investigation, or legislative solution


NOTES:
1 Management did not meet the target date. Target date is over 1 year old.
2 Management did not meet the target date. Target date is under 1 year old.
3 No management decision




                                                                                                                          71
SEMIANNUAL REPORT TO CONGRESS



TABLE C


Inspector General-issued reports with questioned and unsupported
costs at 03/31/2014 (thousands)

                                                                                    NUMBER
                                                                                                       QUESTIONED          UNSUPPORTED
     AUDIT REPORTS                                                                  OF AUDIT
                                                                                                           COSTS                COSTS
                                                                                    REPORTS

               For which no management decision had been made
     A1                                                                                      43           $861,560              $384,763
               by the commencement of the reporting period

               For which no management decision had been made
     A2                                                                                        5             $8,960               $5,299
               by the commencement of the reporting period

               For which litigation, legislation, or
                                                                                                               $212                  $177
     A3        investigation was pending at the                                                -
               commencement of the reporting period

               For which additional costs were added
     A4                                                                                        0                  $0                   $0
               to reports in beginning inventory

     B1        For which costs were added to noncost reports                                 23           $124,850              $113,406

     B2        Which were issued during the reporting period                                   0                  $0                   $0

     SUBTOTALS (A + B)                                                                       71           $995,582             $503,645

               For which a management decision was
     C                                                                                     4512            $152,743             $113,572
               made during the reporting period

               1) Dollar value of disallowed costs:
                                                                                           2013             $37,153              $22,118
               	        Due HUD
                                                                                             31             $87,472               $73,471
               	        Due program participants

               (2) Dollar value of costs not disallowed                                      714            $28,118               $17,983

               For which a management decision had been
     D         made not to determine costs until completion                                    5             $8,960               $5,299
               of litigation, legislation, or investigation

               For which no management decision had been                                     21           $833,879              $384,774
     E
               made by the end of the reporting period                                < 50 >15      < $820,354 >15        < $371,500 >15



12
     Twenty-four audit reports also contain recommendations with funds be put to better use.
13
     Seven audit reports also contain recommendations with funds due program participants.
14
     Six audit reports also contain recommendations with funds agreed to by management.
15
     The figures in brackets represent data at the recommendation level as compared to the report level. See Explanations of Tables C and D.




          72
                                                                                                                            APPENDIX 3 TABLES



TABLE D


Inspector General-issued reports with recommendations that funds be put
to better use at 03/31/2014 (thousands)


                                                                                                       NUMBER
                                                                                                                              DOLLAR
  AUDIT REPORTS                                                                                        OF AUDIT
                                                                                                                               VALUE
                                                                                                       REPORTS

           For which no management decision had been made by the
  A1                                                                                                            30            $424,986
           commencement of the reporting period

           For which litigation, legislation, or investigation was pending
  A2                                                                                                               4            $17,375
           at the commencement of the reporting period

  A3       For which additional costs were added to reports in beginning inventory                                 -               $251

  A4       For which costs were added to noncost reports                                                         0                    $0

  B1       Which were issued during the reporting period                                                        13           $1,130,315

  B2       Which were reopened during the reporting period                                                       0                    $0

   SUBTOTALS (A + B)                                                                                            47          $1,572,927

  C        For which a management decision was made during the reporting period                               3116             $373,255

           (1) Dollar value of recommendations that were agreed to by management:
                                                                                                              1017            $305,980
           	          Due HUD
                                                                                                                18              $51,891
           	          Due program participants

           (2) Dollar value of recommendations that were not agreed
                                                                                                                518             $15,384
           to by management

           For which management decision had been made not to determine
  D                                                                                                                3              $4,811
           costs until completion of litigation, legislation, or investigation

           For which no management decision had been made by the end of the                                     13           $1,194,861
  E
           reporting period                                                                               < 35 > 19
                                                                                                                         < $1,093,953 >19



16 Twenty-four Audit Reports also contain recommendations with questioned costs.
17 One Audit Report also contains recommendations with funds due program participants.
18 One Audit Report also contains recommendations with funds agreed to by management.
19 The figures in brackets represent data at the recommendation level as compared to the report level. See Explanations of Tables C and D.




                                                                                                                                 73
SEMIANNUAL REPORT TO CONGRESS




EXPLANATIONS OF TABLES C AND D


The Inspector General Act Amendments of 1988 require inspectors general and agency heads to report cost
data on management decisions and final actions on audit reports. The current method of reporting at the
“report” level rather than at the individual audit “recommendation” level results in misleading reporting of cost
data. Under the Act, an audit “report” does not have a management decision or final action until all
questioned cost items or other recommendations have a management decision or final action. Under these
circumstances, the use of the “report” based rather than the “recommendation” based method of reporting
distorts the actual agency efforts to resolve and complete action on audit recommendations. For example,
certain cost items or recommendations could have a management decision and repayment (final action) in a
short period of time. Other cost items or nonmonetary recommendation issues in the same audit report may
be more complex, requiring a longer period of time for management’s decision or final action. Although
management may have taken timely action on all but one of many recommendations in an audit report, the
current “all or nothing” reporting format does not recognize their efforts.
     The closing inventory for items with no management decision in tables C and D (line E) reflects figures at
the report level as well as the recommendation level.




74
                                             OIG TELEPHONE DIRECTORY




HUD OIG TELEPHONE DIRECTORY


Office of Audit

HEADQUARTERS 		    Washington, DC					202-708-0364
OFFICE OF AUDIT	



REGION 1-2			      New York, NY					212-264-4174
				Albany, NY					518-462-2892
				Boston, MA					617-994-8380
				Buffalo, NY					716-551-5755
				Hartford, CT					860-240-4837
				Newark, NJ					973-776-7339


REGION 3			        Philadelphia, PA					215-656-0500
				Baltimore, MD					410-962-2520
				Pittsburgh, PA					412-644-6372
				Richmond, VA					804-771-2100



REGION 4			        Atlanta, GA	   				404-331-3369
				Greensboro, NC					336-547-4001
				Jacksonville, FL					904-232-1226
				Knoxville, TN					865-545-4400
				Miami, FL					305-536-5387
				San Juan, PR					787-766-5540


REGION 5			        Chicago, IL					312-353-7832
				Columbus, OH					614-469-5745
				Detroit, MI					313-226-6280



REGION 6			        Fort Worth, TX					817-978-9309
				Baton Rouge, LA					225-448-3976
				Houston, TX					713-718-3199
				New Orleans, LA					504-671-3715
				Albuquerque, NM					505-346-7270
				Oklahoma City, OK				405-609-8606
				San Antonio, TX					210-475-6800




                                                                 75
SEMIANNUAL REPORT TO CONGRESS




REGION 7-8-10		 Kansas City, KS					913-551-5870
				St. Louis, MO					314-539-6339
				Denver, CO					303-672-5452
				Seattle, WA					206-220-5360



REGION 9			                     Los Angeles, CA					213-894-8016
				Las Vegas, NV					702-336-2100
				Phoenix, AZ					602-379-7250
				San Francisco, CA				415-489-6400
				



Office of Investigation

HEADQUARTERS 		        Washington, DC					202-708-0390
OFFICE OF INVESTIGATION				



REG ION 1-2			                  New York, NY					212-264-8062
				Boston, MA					617-994-8450
				Hartford, CT					860-240-4800
				Manchester, NH					603-666-7988
				Newark, NJ					973-776-7355



REGION 3			                     Philadelphia, PA					215-430-6758
				Baltimore, MD					410-209-6533
				Pittsburgh, PA					412-644-6598
				Richmond, VA					804-822-4890
				Washington, DC					202-287-4100



REGION 4			                     Atlanta, GA					404-331-5001
				Birmingham, AL					205-745-4314
				Columbia, SC					803-451-4318
				Greensboro, NC					336-547-4000
				Jackson, MS					601-965-4700
				Memphis, TN					901-554-3148
				Miami, FL					305-536-3087
				San Juan, PR					787-766-5868
				Tampa, FL					813-228-2026




76
                                           OIG TELEPHONE DIRECTORY




REGIO N 5			      Chicago, IL					312-353-4196
				Cleveland, OH					216-357-7800
				Columbus, OH					614-469-6677
				Detroit, MI					313-226-6280
				Grand Rapids, MI					616-916-3715
				Indianapolis, IN					317-226-5427
				Minneapolis-St. Paul, MN				612-370-3130


REG ION 6			      Fort Worth, TX					817-978-5440
				Baton Rouge, LA					225-448-3941
				Houston, TX					713-718-3221
				Little Rock, AR					501-324-5931
				New Orleans, LA					504-671-3700
				Oklahoma City, OK				405-609-8603
				San Antonio, TX					210-475-6819


REGION 7-8-10		   Kansas City, KS					913-551-5866
				St. Louis, MO					314-539-6559
				Denver, CO					303-672-5350
				Billings, MT					406-247-4080
				Salt Lake City, UT					801-524-6090
				Seattle, WA					206-220-5380


REGIO N 9			      Los Angeles, CA					213-894-0219
				Las Vegas, NV					702-366-2144
				Phoenix, AZ					602-379-7252
				Sacramento, CA					916-930-5691
				San Francisco, CA				415-489-6683




                                                               77
SEMIANNUAL REPORT TO CONGRESS




ACRONYMS LIST


ARRA.......................................................................American Recovery and Reinvestment Act of 2009
BPD..........................................................................Bureau of Public Debt
CDBG.......................................................................Community Development Block Grant
CDBG-DR................................................................Community Development Block Grant Disaster Recovery
CFR..........................................................................Code of Federal Regulations
CI.............................................................................Criminal Investigation (Internal Revenue Service)
CPD..........................................................................Office of Community Planning and Development
DOL.........................................................................U.S. Department of Labor
FBI............................................................................Federal Bureau of Investigation
FFMIA......................................................................Federal Financial Management Improvement Act of 1996
FHA..........................................................................Federal Housing Administration
FHFA........................................................................Federal Housing Finance Agency
FIFO.........................................................................first-in, first-out
FIRMS......................................................................Facilities Integrated Resources Management System
FISMA......................................................................Federal Information Security Management Act
FSS...........................................................................Family Self-Sufficiency
GAAP.......................................................................generally accepted accounting principles
GAO.........................................................................U.S. Government Accountability Office
HEMS.......................................................................HUD Enforcement Systems
HERMIT...................................................................Home equity reverse mortgage information technology
HIAMS.....................................................................HUD Integrated Acquisition Management System
HIFMIP....................................................................... HUD’s Integrated Financial Management Improvement Project
HOME......................................................................HOME Investment Partnerships Program
HPS..........................................................................HUD Procurement System
HUD.........................................................................U.S. Department of Housing and Urban Development
HUDCAPS...............................................................HUD’s Centralized Accounting Program System
IDIS..........................................................................Integrated Disbursement and Information System
IRS...........................................................................Internal Revenue Service
IT..............................................................................Information Technology
MMI.........................................................................Mutual Mortgage Insurance
OCFO.......................................................................Office of the Chief Financial Officer
ODOC......................................................................Office of Departmental Operations and Coordination
OIG..........................................................................Office of Inspector General
OMB.........................................................................Office of Management and Budget
PERMS.....................................................................Performance Measurement System
PHA..........................................................................public housing agency
SPS...........................................................................Small Purchase System
U.S.C........................................................................United States Code
VA.............................................................................U.S. Department of Veterans Affairs




78
                                                                                          REPORTING REQUIREMENTS




REPORTING REQUIREMENTS
The specific reporting requirements as prescribed by the Inspector General Act of 1978, as amended by the
Inspector General Act of 1988, are listed below.


SOURCE-REQUIREMENT	PAGES



Section 4(a)(2)-review of existing and proposed legislation and regulations	                                  36

Section 5(a)(1)-description of significant problems, abuses, and deficiencies
relating to the administration of programs and operations of the Department.	                             12 - 35

Section 5(a)(2)-description of recommendations for corrective
action with respect to significant problems, abuses, and deficiencies.	                                       39

Section 5(a)(3)-identification of each significant recommendation described in
previous Semiannual Reporton which corrective action has not been completed.	           Appendix 3, table B, 57

Section 5(a)(4)-summary of matters referred to prosecutive authorities
and the prosecutions and convictions that have resulted.	                                                 12 - 35

Section 5(a)(5)-summary of reports made on instances where information or
assistance was unreasonably refused or not provided, as required by Section 6(b)(2) of the Act.	    No instances

Section 5(a)(6)-listing of each audit report completed during the reporting period,
and for each report, where applicable, the total dollar value of questioned and
unsupported costs and the dollar value of recommendations that funds be put to better use.	        Appendix 2, 52

Section 5(a)(7)-summary of each particularly significant report.	                                         12 - 35

Section 5(a)(8)-statistical tables showing the total number of audit reports
and the total dollar value of questioned and unsupported costs.	                        Appendix 3, table C, 72

Section 5(a)(9)-statistical tables showing the total number of audit reports and
the dollar value of recommendations that funds be put to better use by management.	     Appendix 3, table D, 56

Section 5(a)(10)-summary of each audit report issued before the commencement of the reporting
period for which no management decision had been made by the end of the period.	         Appendix 3, table A, 56

Section 5(a)(11)-a description and explanation of the reasons for any significant
revised management decisions made during the reporting period.	                                               46

Section 5(a)(12)-information concerning any significant management
decision with which the Inspector General is in disagreement.	                                                48

Section 5(a)(13)-the information described under section 05(b)
of the Federal Financial Management Improvement Act of 1996.	                                                 49




                                                                                                              79
SEMIANNUAL REPORT TO CONGRESS




FRAUD ALERT
Every day, loan modification and foreclosure rescue scams rob vulnerable homeowners of their money and their
homes. The U.S. Department of Housing and Urban Development (HUD), Office of Inspector General, is the
Department’s law enforcement arm and is responsible for investigating complaints and allegations of mortgage
fraud. Following are some of the more common scams:



COMMON LOAN MODIFICATION SCAMS

Phony counseling scams: The scam artist says that he or she can negotiate a deal with the lender to modify
the mortgage — for an upfront fee.


Phony foreclosure rescue scams: Some scammers advise homeowners to make their mortgage payments
directly to the scammer while he or she negotiates with the lender. Once the homeowner has made a few
mortgage payments, the scammer disappears with the homeowner’s money.


Fake “government” modification programs: Some scammers claim to be affiliated with or approved by the
government. The scammer’s company name and Web site may appear to be a real government agency, but the
Web site address will end with .com or .net instead of .gov.


Forensic loan audit: Because advance fees for loan counseling services are prohibited, scammers may sell
their services as “forensic mortgage audits.” The scammer will say that the audit report can be used to avoid
foreclosure, force a mortgage modification, or even cancel a loan. The fraudster typically will request an
upfront fee for this service.


Mass joinder lawsuit: The scam artist, usually a lawyer, law firm, or marketing partner, will promise that he
or she can force lenders to modify loans. The scammers will try to “sell” participation in a lawsuit against the
mortgage lender, claiming that the homeowner cannot participate in the lawsuit until he or she pays some
type of upfront fee.


Rent-to-own or leaseback scheme: The homeowner surrenders the title or deed as part of a deal that will let
the homeowner stay in the home as a renter and then buy it back in a few years. However, the scammer has
no intention of selling the home back to the homeowner and, instead, takes the monthly “rent” payments and
allows the home to go into foreclosure.



Remember, only work with a HUD-approved housing counselor to understand your options for assistance.
HUD-approved housing counseling agencies are available to provide information and assistance. Call 888-
995-HOPE to speak with an expert about your situation. HUD-approved counseling is free of charge.



IF YOU SUSPECT FRAUD, CALL THE U.S. DEPARTMENT OF HOUSING AND URBAN
DEVELOPMENT, OFFICE OF INSPECTOR GENERAL.




80
                                                           APPENDIX THREE CHARTS




Report fraud, waste, and mismanagement
    in HUD programs and operations by

               Faxing the OIG hotline: 202-708-4829
            Emailing the OIG hotline: hotline@hudoig.gov



                   Sending written information to
           Department of Housing and Urban Development
                   Inspector General Hotline (GFI)
                         451 7th Street, SW
                            Room 8254
                      Washington, DC 20410



                              Internet
              http://www.hudoig.gov/hotline/index.php


ALL INFORMATION IS CONFIDENTIAL, AND YOU MAY REMAIN ANONYMOUS.




                                                                            81
                              U.S. DEPARTMENT
                              OF HOUSING
                              AND URBAN
                              DEVELOPMENT



Report Number 71
www.hudoig.gov
HUD OIG Hotline: 1-800-347-3735
